<html>
<title> - WILDFIRES AND FOREST MANAGEMENT: PREVENTION IS PRESERVATION</title>
<body><pre>[Senate Hearing 113-352]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-352
 
      WILDFIRES AND FOREST MANAGEMENT: PREVENTION IS PRESERVATION 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

89-363 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




                      COMMITTEE ON INDIAN AFFAIRS

                     JON TESTER, Montana, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
MARIA CANTWELL, Washington           LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 14, 2014.....................................     1
Statement of Senator Barrasso....................................    14
Statement of Senator McCain......................................    17
Statement of Senator Tester......................................     1

                               Witnesses

Breuninger, Hon. Danny, President, Mescalero Apache Nation.......    21
    Prepared statement...........................................    22
Brooks, Jonathan, Tribal Forest Manager, White Mountain Apache 
  Tribe..........................................................    35
    Prepared statement...........................................    36
Hubbard, James, Deputy Chief, State and Private Forestry, U.S. 
  Forest Service, U.S. Department of the Interior................     7
    Prepared statement...........................................     8
Leighton, Adrian, Ph.D., Chair, Natural Resources Department, 
  Salish Kootenai College........................................    44
    Prepared statement...........................................    45
Rigdon, Philip, President, Intertribal Timber Council............    28
    Prepared statement...........................................    29
Washburn, Hon. Kevin, Assistant Secretary--Indian Affairs, U.S. 
  Department of the Interior.....................................     2
    Prepared statement...........................................     4
  Additional statement submitted for the record:
      Hon. Michael O. Finley, Chairman, Confederated Tribes of 
      the Colville Reservation...................................    60


      WILDFIRES AND FOREST MANAGEMENT: PREVENTION IS PRESERVATION

                              ----------                              


                        WEDNESDAY, MAY 14, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. Jon Tester, 
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    The Chairman. The Committee will come to order.
    Good afternoon. It is good to have you all here today for 
this hearing. A special thanks to Kevin. Kevin, every Wednesday 
at 2:30 p.m., you have had a date here for about the last 
month. We appreciate you being here.
    This Committee is holding an oversight hearing on Wildfires 
and Forest Management, with a particular focus on the 
relationship between Federal and tribal forest management.
    The 2014 fire season is just beginning and thousands of 
families across the country, particularly western communities, 
are bracing for another season of devastating forest fires.
    Already this year, there are at least 17 large fires 
burning across the southern United States. The latest fires are 
part of an ominous trend toward bigger, hotter and longer fire 
seasons. Since 1960, there have been 235 million acres plus 
burned. To put that in perspective, that amount would cover the 
entire area of Montana and New Mexico combined.
    Federal agencies responsible for protecting our communities 
are working to develop and apply smarter fire fighting 
strategies and focus on fighting fires and cleaning up the mess 
afterwards is like trying to live off a high interest credit 
card. We keep paying more by picking up the pieces at the end 
as risk for wildfire continues to escalate the cost of damages.
    Last year, the Forest Service and the Department of the 
Interior spent a combined $1.7 billion on suppression alone. 
This is in line with the last five year average of about $1.8 
billion annually. This amount does not count the State, local 
and travel costs.
    I think everyone can agree that wildfire prevention 
activities such as hazardous fuel treatments reduce fire 
suppression costs. Yet, budget requests from the Forest Service 
and DOI don't keep up with the need for hazardous fuel 
treatments.
    No where are the effects of wildfire more apparent and the 
benefit of working ahead of time to reduce the threat of fires 
more obvious than on tribal forests. Tribal communities rely on 
their forests for economic development, recreation and cultural 
activities. Each year, tribal habitat is lost for decades, 
sometimes forever.
    The damage is not just to trees. Every year wild fire 
firefighters risk their lives to protect others and each year, 
we lose too many of these brave men and women. Just last year, 
34 wildfire fighters died in the line of duty.
    Forest management does not stop at the border of any 
jurisdiction anymore than the wildfire does. That theme is 
echoed in three topics our witnesses will discuss today: the 
Anchor Forest Pilot Project; the IFMAT III report; and the 
Tribal Forest Protection Act Report.
    The Anchor Forest Pilot Project offers an alternative, 
cross jurisdictional approach to forest management. The IFMAT 
III report highlights how chronic under funding is leading to 
lost economic opportunities and tribal resources. Federal 
funding of Indian forests is still greatly lacking and staffing 
shortfalls jeopardize the capacity to care for the forest 
resource.
    The Tribal Forest Protection Act Report shows there is 
still a long way to go for tribes and Federal agencies to work 
together to better protect tribal lands from threats 
originating on Federal lands. As we will hear today, tribal 
forests serve as models of how all of our Nation's forests 
should be cared for. We need to provide the appropriate support 
for them to continue to do so.
    With that, I will welcome all our witnesses today. It is 
certainly an important issue in my home State of Montana as 
well as tribal and non-tribal communities across this country. 
I look forward to the testimony today regarding how we can 
improve forest and wildfire management in tribal and Federal 
forests.
    When Senator Barrasso comes, we will have his opening 
statement. In the meantime, I think we will start with Kevin 
Washburn and James Hubbard for their opening statements.
    Once again, welcome. You have five minutes. Your entire 
testimony will be a part of the record. After you are done, we 
will have questions.
    We have the Honorable Kevin Washburn, Assistant Secretary 
for Indian Affairs, Department of the Interior and Mr. James 
Hubbard, Deputy Chief, State and Private Forestry, U.S. Forest 
Service, U.S. Department of Agriculture. These folks will offer 
their agencies' and the Administration's perspective.
    I welcome you both. Thank you for taking time out of what I 
know is a very busy schedule to come and enlighten this 
Committee.
    Kevin, you may proceed.

          STATEMENT OF HON. KEVIN WASHBURN, ASSISTANT 
       SECRETARY--INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Washburn. Chairman, thank you so much for having us. 
Thanks for having a hearing on this very important subject.
    One of my first experiences with forest fire was in Montana 
at Flathead. I was a baby lawyer at the Department of Justice. 
There was a fire called the NORTH I fire. It was probably 1991 
or something like that. I was brought in to sue General Motors 
because General Motors was arguably the cause of the fire. We 
ultimately obtained a settlement.
    I was at the Justice Department. Why was I bringing a case 
on behalf of Flathead? It was a trust resource of the United 
States for the Flathead Tribe, the Kootenai Tribes of the 
Flathead Reservation. I have been somewhat attuned to these 
issues for a very, very long time.
    I came from New Mexico and more recently I have seen the 
devastation that forest fires have caused there. I will say as 
the temperatures grow hotter--what some scientists believe is 
happening--we are worried that we are going to see more and 
more fires. It is very timely for such a hearing and I thank 
you for that.
    I agree with your opening statement that the answer to 
address the fire problem is at least, in part, better 
prevention, including hazardous fuel treatment but also 
harvesting of the forests. A forest fire causes a lot of damage 
and wrecks streams, waterways, landscapes and in some respects, 
if you view this from the trust resource, it is like lighting 
money on fire and letting it burn up. That is a bad thing and 
we need to be very creative in how we address these important 
issues.
    Forests turned out to be one of our most important trust 
resources. There are 310 forests at Indian reservations located 
in 24 States, so this is something that broadly affects much of 
the country. Certainly Montana and New Mexico are two of the 
States that have a lot of forest land but they range across a 
lot of States, including over 18 million acres of Indian 
forests in the United States held in trust by us.
    This is no small issue. For many of the tribes, it is their 
principal source of economic development. It is something we 
take very, very seriously.
    We are grateful to the IFMAT team doing the decennial 
reports. We have fairly recently been briefed on the most 
recent decennial report. There is a lot of interesting 
information in there. One of the things we have seen of 
interest in this report is everyone knows that I am very much 
in favor of tribal self governance. We have just about doubled 
the number of tribes involved in self government since the 
first IFMAT report was produced in the early 1990s.
    Having said that, even for the tribes that aren't 
contracting or compacting for these functions, they are working 
very, very closely with the BIA. There is a nice, cooperative 
arrangement between direct services tribes and the BIA on 
managing these forests. It is a huge task, so it wouldn't be 
done nearly as well without that great cooperation.
    We are very interested in the Anchor Forest model. It 
combines both good management of forests with good economic 
management of trust resources. We are anxious to learn more 
about that and see how we can be supportive of it. Those are 
the principal things I would like to say in my opening 
statement.
    I will stop there. Thank you.
    [The prepared statement of Mr. Washburn follows:]

Prepared Statement of Hon. Kevin Washburn, Assistant Secretary--Indian 
                Affairs, U.S. Department of the Interior
    Good afternoon Chairman Tester, Vice Chairman Barrasso, and members 
of the Committee. Thank you for inviting the Department of the Interior 
(Department) to provide testimony about tribal forestry and wildland 
fire management. Forests encompass about a third of the total Indian 
trust lands and provide irreplaceable economic and cultural benefits to 
Indian people. Forests store and filter the water and purify the air. 
They sustain habitats for the fish and wildlife that provide sustenance 
for the people. They produce foods, medicines, fuel, and materials for 
shelter, transportation, and artistic expression. Forests provide 
revenues for many tribal governments and in some cases provide the 
principal source of revenue for a tribal government and provide 
employment for Indian people in these rural communities.
Overview
    There are over 18 million acres of Indian forests in the U.S. held 
in trust by the federal government. There are 310 forested Indian 
reservations located in 24 states. Six million acres are considered 
commercial timberlands, nearly four million acres are commercial 
woodlands, and more than eight million acres are a mixture of 
noncommercial timberlands and woodlands. Commercial forests on trust 
land are producing nearly one billion board feet of merchantable timber 
every year.
    Historically, the management of tribal land was accomplished 
through the use of fire. Today however, fire alone cannot be used to 
accomplish forest management activities. The management of Indian 
forests and other resources is limited by geographic and political 
boundaries and increasingly threatened from external forces, such as 
wildfire, insects, disease, development and urbanization.
    Forests on tribal reservations and throughout the country, but 
particularly in the more arid interior west, have grown much denser in 
recent decades, have undergone shifts in species composition, and have 
experienced more frequent epidemics of insect and disease infestations. 
These conditions are considered indicators of poor forest health and 
jeopardize tribal forest resources. Left untreated, forests in poor 
condition pose a threat of catastrophic loss by wildfire. Maintaining 
healthy, productive tribal forests requires the cutting and sale of 
large trees as well as the thinning of small trees through mechanical 
and prescribed fire methods.
Timber Management--Thinning the Large Trees
    Our professional foresters and fire managers who work for the 
Bureau of Indian Affairs and for Tribal programs understand the art and 
science of maintaining forest health, as well as the need to 
incorporate Tribal goals, objectives and traditional ecological 
knowledge. However, there are various limitations to the amount of work 
these dedicated land managers can perform, including the absence of 
viable forest products markets, milling infrastructure, and resources 
for post-harvest thinning, burning, and planting.
    Since 2003, timber harvest levels have dropped 42 percent, from 
635.4 to 367.9 million board feet. Tribes are now harvesting only 38 
percent of what is currently available to be harvested on an annual, 
sustained yield basis. By not harvesting what is growing annually, the 
forests continue to get denser. It is important to note that these 
larger trees are not being removed through the Bureau's Forest 
Development program or the Department's Fuels Management program and 
contrary to common belief, the large tree component of the forest often 
sustains catastrophic stand replacement crown fire.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Tribes which actively manage timber and other forest products rely 
on sale proceeds to employ tribal members, finance economic development 
projects and tribal infrastructure, and provide social services.
    Tribes have begun coordinating and collaborating with their federal 
and state partners on a regional basis to identify ways marketable 
forest wood fiber supply can be pooled in an effort to entice industry 
to finance regional milling and biomass utilization converting 
facilities, through what is known as the Anchor Forest Initiative. As a 
stand-alone supplier, most tribes lack the amount of wood fiber 
necessary to support the capitalization of converting facilities that 
utilize forest-based fiber. The maintenance of a healthy forest 
products economy and strategically located regional processing 
facilities promotes long term forest health and helps to prevent 
catastrophic wildfire. The Department supports concepts such as the 
Anchor Forest Initiative and is working with the Tribes, the Bureau of 
Indian Affairs, and the Department of Agriculture in nurturing this 
initiative.
Forest Development and Fuels Management--Thinning Small Trees and 
        Treating Dead Fuels
    Investments in pre-commercial thinning and hazardous fuels 
reduction operations keep forests healthy and resilient, helping avoid 
stand-replacing crown fires and associated environmental and economic 
consequences, including pollution to the atmosphere.
    The Bureau of Indian Affairs funds project work for thinning excess 
small trees while the Department, through the Wildland Fire Management 
Appropriation, funds hazardous fuels treatments which reduce both dead 
and live fuels. These funding sources complement one another and are 
often strategically comingled in order to meet silvicultural 
prescriptions. From 2003 to 2013, the BIA has treated an average of 
31,430 acres annually, using funding appropriated through the BIA's 
Forestry Subactivity. During this same period, an average of 210,746 
acres annually has been treated using funding appropriated through the 
Department's Wildland Fire Appropriation. In many tribal forests, 
treatments which include both the harvesting (sale) of large trees and 
the removal of excess small trees must be combined in order to ensure 
treatments are comprehensive and meet science-based silvicultural 
prescriptions. A comprehensive treatment is the most effective way to 
ensure the forest stays healthy, free of infestation and disease, while 
being resilient to the effects of unwanted wildfire.
National Indian Forest Resources Management Act (NIFRMA)
    In 1991, the Department supported enactment of the National Indian 
Forest Resources Management Act (NIFRMA). The Act authorized the 
Secretary to conduct a comparative analysis of investments made in 
Indian Forestry, versus those made in other land management agencies, 
every ten years (25 USC Sec. 3111). This periodic assessment is known 
as the Indian Forest Management Assessment (IFMAT).
The IFMAT Report
    The IFMAT Report addresses eight required NIFRMA evaluation 
criteria which include:

        1.  an in-depth analysis of management practices on, and the 
        level of funding for, specific Indian forest land compared with 
        similar Federal and private forest lands,

        2.  a survey of the condition of Indian forest lands, including 
        health and productivity levels,

        3.  an evaluation of the staffing patterns of forestry 
        organizations of the Bureau of Indian Affairs and of Indian 
        tribes,

        4.  an evaluation of procedures employed in timber sales 
        administration, including preparation, field supervision, and 
        accountability for proceeds,

        5.  an analysis of the potential for reducing or eliminating 
        relevant administrative procedures, rules and policies of the 
        Bureau of Indian Affairs consistent with the Federal trust 
        responsibility,

        6.  a comprehensive review of the adequacy of Indian forest 
        land management plans, including their compatibility with 
        applicable tribal integrated resource management plans and 
        their ability to meet tribal needs and priorities,

        7.  an evaluation of the feasibility and desirability of 
        establishing minimum standards against which the adequacy of 
        the forestry programs of the Bureau of Indian Affairs in 
        fulfilling its trust responsibility to Indian tribes can be 
        measured, and

        8.  a recommendation of any reforms and increased funding 
        levels necessary to bring Indian forest land management 
        programs to a state-of-the-art condition.

    The third IFMAT report was recently completed in 2013. The report 
found that tribes are assuming an ever-increasing leadership role in 
forest management activities through self-determination and self-
governance, with 38 percent of the 310 Indian forestry programs nation-
wide currently managed by the Tribes. I am proud to say that the report 
found that both Bureau of Indian Affairs and tribal forest managers 
rank as some of the most dedicated, hardworking individuals in the 
forest management profession. Their innovation and influence on the 
science of integrated forestry practices and sustained yield management 
is widely recognized, providing a solution for ecosystem health and 
productivity and a framework for cross-jurisdictional management of 
federal and state lands through the Anchor Forest Initiative.
    The IFMAT team visited 20 Indian reservations and received input 
from Bureau of Indian Affairs (BIA) and tribal foresters and resource 
managers, forestry students, tribal leaders, and tribal elders. The 
reservations, forests, and people visited were highly diverse, each 
with their own set of local challenges. It was broadly noted by 
respondents that Indian forests are increasingly threatened by external 
forces, such as wildfire, insects, disease, development, climate 
change, declining access to markets, and urbanization.
    The Report showed many positive examples of people caring deeply 
about the land and their management decisions. Indian forests represent 
a unique window into the interaction between forests and people.
    The management of Indian forests must be directed toward achieving 
a dynamic set of tribal objectives, making the management of Indian 
forestlands particularly unique. Tribal leaders have recently begun 
extending their influence beyond reservation boundaries to build 
interagency partnerships for a sustainable future. Tribes with 
permanent land bases and a demonstrated history of long-term 
stewardship play a pivotal role to achieve cross-boundary, landscape-
level resource management and restoration.
Current Department Initiatives
    There are many opportunities to build on the findings and 
recommendations of the IFMAT Report. The groundwork has already been 
laid through FY14 Forestry program initiatives that include additional 
support to tribes to maintain productive levels of forest management. 
In addition, as part of the Administration's commitment to advance 
science-based collaborative efforts, we have provided for climate 
change research and the development of a youth program in forestry.
    We are particularly pleased with our Youth Initiative which 
supports the development of tribal youth engaged in projects that 
promote climate change awareness. This program, in partnership with a 
tribal college, will provide opportunities for youth to gain hands-on 
classroom and field experience in the field of forestry and study the 
relationship to climate change and the long term implications to tribal 
forestry. Furthermore, the college currently sponsors 14 cooperative 
education students who are receiving Forestry education at universities 
throughout the country. Our goal is to increase the number of students 
enrolled in this program by FY16, which provides tuition and other 
support, as qualified entry level American Indian and Alaska Native 
foresters are in short supply.
Conclusion
    Thank you for the opportunity to provide the Department's views. 
The Department continues to work with Tribes to promote healthy forests 
and will continue to work closely with this Committee as well as our 
federal and state partners to address forestry and fire management 
issues
    Thank you for focusing attention on this important topic. I am 
available to answer any questions the Committee may have.

    The Chairman. Thank you, Kevin. I appreciate your 
perspective. There will be questions. I appreciate your 
willingness to be here.
    Mr. Hubbard?

  STATEMENT OF JAMES HUBBARD, DEPUTY CHIEF, STATE AND PRIVATE 
              FORESTRY, U.S. FOREST SERVICE, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Hubbard. Thank you, Mr. Chairman and Mr. Vice Chairman. 
I appreciate being here today.
    In terms of relationships, as you stated, it is important 
to the Forest Service, the government-to-government 
relationship, recognition that the tribes are the original 
stewards of the land and their traditional knowledge is 
something we need to pay attention to and take into account.
    This came through loud and clear when we started looking at 
our sacred sites policy. We would talk to tribal councils and 
elders and learn from that the only way we are going to better 
understand is to walk the land with those tribes, where they 
live and where they are familiar with territory.
    How the land is managed, whether it is the national 
forests, the reservations, any of the trust lands that the 
tribes are interested in, is an important thing. I think IFMAT 
points out that to us and gives us a trend of how we are doing, 
where we are going and what we might want to pay more attention 
to.
    Certainly Anchor Forest is an exploration of how we might 
better do things across boundaries and how we might use well 
managed tribal lands and existing processing infrastructure to 
support an economic base for good forest, active forest 
management and build off that that.
    The Tribal Forest Protection Act, stewardship contracting, 
good neighbor, all are tools that we can throw into that 
equation and I think do a better job of managing the forest 
condition. It is the forest condition and the wildfire threat 
that results that worries us the most. If we are going to have 
resilient forests, if we are going to reduce fire risk, it will 
take that active management to accomplish it. We know that.
    The forecast for fire conditions is not good any time in 
the foreseeable future. The western forests, in particular, are 
old and dry and in many cases, they are ready to burn or, as we 
have seen, be susceptible to insect and disease attack on a 
wide scale. That isn't something that is going to change 
anytime soon.
    We have to pick our places and pick our priorities and make 
the right kind of choices together across those boundaries on 
the landscape to have any different outcome if we expect things 
to look better than they look now.
    Those are gut examples of how we can cross those boundaries 
but we haven't done nearly enough and are going to have to be 
more selective in choosing our priorities for where we can 
actually affect that outcome.
    The Forest Service has struggled with how to budget and how 
to pay for fire suppression. Our 2015 budget proposal proposes 
something different for suppression financing. It says if we 
have any relief from that suppression bill, we would like to 
put it into restoration and hazardous fuel reduction.
    Those are our priorities. How we deal with fire 
suppression, we will be prepared to respond to fire suppression 
as part of our job. We know it. We'd like to do more in the 
realm of mitigation and the forest management across the 
boundaries of other partners is the only way we get to a 
different outcome on a landscape.
    We know that and tribes are very much a part of that. There 
are plenty of examples of well managed tribal land that we 
could build from.
    Thank you very much.
    [The prepared statement of Mr. Hubbard follows:]

 Prepared Statement of James Hubbard, Deputy Chief, State and Private 
     Forestry, U.S. Forest Service, U.S. Department of the Interior
Introduction
    Good morning Chairman Tester, Vice Chairman Barrasso, and Members 
of the Committee. Thank you for inviting the Department of Agriculture 
to provide testimony on our longstanding and productive partnerships 
with Indian Tribes and Tribal organizations as we responsibly manage 
shared resources, improve the health of our forests across boundary 
lines, support rural economies, and work together to make both public 
and Tribal lands more resilient.
Government-to-Government Relationship With Indian Tribes
    Indian Tribes have a unique status established by the Constitution. 
The Forest Service and USDA are committed to a government-to-government 
relationship with federally recognized Indian Tribes. We recognize that 
American Indians and Alaska Natives were the original stewards of the 
lands that now comprise the National Forest System. In addition, for 
some National Forest System lands the Forest Service is responsible for 
fulfilling treaty obligations of the United States. In many cases, 
National Forest System land shares borders with Tribal land. As part of 
the government-to-government relationship, the Forest Service 
coordinates, collaborates and consults with Indian Tribes in the 
management of the National Forest System and the provision of Forest 
Service program services. Through this process, the Forest Service 
seeks to understand and identify areas for common management 
objectives, as well as to recognize differing landownership and 
management objectives. Although the agency and Tribes operate under 
different laws and regulations, the Forest Service intends to be a good 
neighbor and foster beneficial collaborative relationships and 
partnerships with Indian Tribes in the management of common landscapes 
and ecosystems.
    There are a number of Federal laws that build upon the 
Constitutional bedrock of the sovereignty of Tribal governments. Key 
among those laws for the Forest Service are the Federal Land Policy and 
Management Act of 1976 and the National Environmental Policy Act of 
1969, both of which provide opportunities for consultation and 
coordination and commit agency employees to seek and encourage active 
Tribal participation in many aspects of land management and program 
services administration and delivery. In the National Forest Management 
Act of 1976 land management planning process, the Forest Service 
consults with Tribes and invites their participation. In addition, 
Forest Service line officers (Chief, Associate Chief, Deputy Chiefs, 
Regional Foresters, Station Directors, Area Directors, Forest 
Supervisors and District Rangers), in accordance with agency policy, 
frequently meet and consult with the leaders of Tribes who have treaty 
and other Federally protected rights on National Forest System lands. 
Executive Order 13175, Consultation and Coordination with Indian Tribal 
Governments, requires Federal agencies to develop an ``accountable 
process'' for ensuring meaningful and timely input by Tribal officials 
in the development of regulatory policies that have Tribal 
implications. The Forest Service Manual and Forest Service Handbook 
further define and clarify agency policy with respect to Tribes and are 
used extensively throughout the agency.
    The Forest Service Office of Tribal Relations was formally 
established in 2004 within the State and Private Forestry Deputy Area. 
This year will mark ten years of the coordination, collaboration and 
consultation that the national office has provided to the various staff 
areas of the Agency. The Tribal Relations directives, including the 
handbook and manual that guide all 30,000 agency employees on their 
work with Indian Tribes, have been updated and revised and are 
currently out for Tribal consultation.
Partnering to Improve Forest Resiliency to Wildfire
    A recent report found the U.S. Forest Service may need to spend as 
much as $1.55 billion fighting fires this year while the agency has 
only $1 billion available for firefighting. If the season is that 
costly, the Forest Service will need to take funding out of other 
critical programs that increase the long-term resilience of our 
National Forests to wildfire in order to continue fighting fires.
    The Forest Service has had to divert funds from other programs to 
fund firefighting efforts for 7 of the last 10 years. Fire transfer 
takes funding away from forest management activities such as mechanical 
thinning and controlled burns that reduce both the incidence and 
severity of wildfires. In addition to fire transfer, over the last two 
decades, the Forest Service has also had to shift more and more money 
to firefighting, thereby reducing foresters, Tribal liaisons, and other 
staff by over 30 percent.
    In its 2015 budget proposal, the Obama Administration proposed a 
special disaster relief cap adjustment for use when costs of fighting 
fires exceed Forest Service and Department of Interior budgets. The 
proposal tracks closely with legislation authored by Oregon Senator Ron 
Wyden, Senator Mike Crapo of Idaho, and Representatives Mike Simpson of 
Idaho and Kurt Schrader of Oregon.
Fuels Reduction
    Planning and implementation of vegetative fuels treatments are 
critical for all land management agencies, including Tribes, to reduce 
the risk of undesired wildland fire impacts. The Forest Service 
consults with Tribes to design and implement fuels treatments. Fuels 
treatments must be carried out before a wildfire occurs because when a 
wildland fire is already burning, it is too late to reduce the risk.
    Wildfire is a landscape-scale phenomenon that does not acknowledge 
political or administrative boundaries. The purpose of fuels treatment 
is to alter potential fire behavior; its full value is only realized 
when tested by a wildland fire. However, that value also relies on 
careful planning and design, and on proper implementation. Some fuels 
treatments require collaborative work between many partners and 
governments and years of arduous efforts to complete a project. Fuels 
treatments can be effective in changing the outcome of wildfires 
because the fuel volume has been reduced and the structure and 
arrangement of the fuel has been modified. The resulting fire behavior 
has lower intensity thus providing wildland suppression personnel more 
options to safely manage the fire. Fuels treatments can serve as 
strategic points on the landscape from which to implement suppression 
operations and protect property and natural resources. Congress 
recognizes the utility and value of fuels treatments and has enacted 
legislation to support land management agencies to effectively 
implement fuels treatments.
    Two recent examples of the Forest Service working with the Tribes 
in support of fuel treatments are:

  <bullet> The Isleta Project in New Mexico, and

  <bullet> The Chippewa National Forest support for Leech Lake Band of 
        Ojibwe in Minnesota.

    As part of The Chiefs' Joint Landscape Restoration Partnership, the 
U.S. Forest Service and Natural Resources Conservation Service have 
approved $1,520,000 for the Isleta Project in the East Mountains near 
Albuquerque. The funds will be used for cross-boundary tree thinning, 
hazardous fuel removal, and controlled burns to restore 2,500 acres of 
the Cibola National Forest and 2,600 acres in Isleta Pueblo and Chilili 
Land Grant.
    The ponderosa pine and pinon juniper forests of the East Mountains 
are dense, dry and overgrown. A wildfire in this area would be 
devastating to both people and nature. A Wildfire Hazard Risk Report 
found nearly 11,000 high-risk homes in the East Mountains. A wildfire 
in this area also has the potential to burn west through the Manzano 
and Sandia Mountains where it could jeopardize Rio Grande water 
supplies.
    Since May 2008, 11 project partners have committed to this multi-
jurisdictional project. Approximately 10,420 acres are identified for 
treatment on this landscape including approximately 2,000 acres on the 
Pueblo, 620 acres on Chilili, and 7,800 acres on National Forest System 
lands. These projects are cross-jurisdictional efforts that will help 
protect communities, cultural resources, wildlife habitat, and 
recreational opportunities and improve overall watershed health. One of 
the overall measures of success for this project will be in the reduced 
threat to communities and homes in the project area from destructive 
wildfire, demonstrated by fuels reduction and improved resiliency 
(e.g., thinning). Treatments conducted through this partnership will 
protect Tribal communities as well as the ecosystem services they rely 
upon from across the landscape. In addition, some work on National 
Forest System lands will be implemented using Tribal crews through 
agreements under the Tribal Forest Protection Act, providing an 
economic benefit to Tribal communities.
    The Chippewa National Forest signed a Memorandum of Understanding 
(MOU) in June 2013 with the Leech Lake Band of Ojibwe, pledging to work 
together in many areas, including hiring Tribal members, contracting 
with the Tribe, technology transfer, training, and more. The Chippewa 
is unique in that it shares overlapping boundaries with the Leech Lake 
Indian Reservation. Approximately 90 percent of the Leech Lake Indian 
Reservation lies within the Chippewa National Forest boundary.
    Although the MOU was signed last June, collaborative efforts have 
been going on for years. In 2005, a Forest Service prescribed fire 
escaped onto reservation lands. To prevent similar events, the Forest 
offered the Tribe $300,000 in Wildland Fire Hazardous Fuels funds to do 
fuels treatment and prescribed burns on their reservation. The Tribe 
treated 500 acres of their land. Following that success, in 2010 the 
Tribe treated an area close to a Tribal school that was an elevated 
fire risk. A third project is ongoing, and a fourth is being planned.
    To date, the list of fuels projects that have been collaboratively 
designed include: three Hazardous Fuels Treatments; a Recovery Act 
project; a Prescribed Fire Agreement; two stewardship projects; and 
agreements to improve forest conditions on Chippewa NF lands. These 
projects have improved over 1,000 acres.
Fire Preparedness
    The Forest Service is responsible for managing nearly 193 million 
acres of the National Forest System. We manage these lands mindful of 
the role they play in providing clean water, wildlife and wildlife 
habitat and other resources valued by communities and neighboring 
landowners, including Tribes. The Forest Service has a long and largely 
successful history of consulting and coordinating with Tribes in a 
government-to-government relationship on all aspects of forest and 
natural resource conservation and management, including wildland fire 
preparedness and wildfire suppression response. In the interagency 
environment of wildland fire management, the wildland fire management 
agencies of Tribes and Bureau of Indian Affairs are full partners in 
managing wildland fires, including coordinating and allocating assets 
to prepare for and suppress wildland fire.
    The Forest Service also assists Tribes to prepare for wildland fire 
through the Cooperative Fire Assistance Program. Tribes may apply for 
assistance in training wildland fire fighters and acquiring 
firefighting equipment through the State Forester. Through coordination 
and unified command within a geographical area, interagency leaders 
determine priorities for fire fighter and public safety, identify 
resources at-risk to wildland fire, and identify post-burn fire 
rehabilitation needs. For example, in the Southwest Area, interagency 
wildland firefighting resources are coordinated by the Southwest 
Coordinating Group which includes agency representatives from the 
Forest Service, four agencies of the U.S. Department of the Interior 
(the Bureau of Indian Affairs, the National Park Service, the Bureau of 
Land Management, and the Fish and Wildlife Service), as well as the 
States of Arizona and New Mexico. In the Southwest Area, the Bureau of 
Indian Affairs represents Tribes with three members on the nine-member 
Southwest Coordinating Group. The Southwest Coordinating Group manages 
the Southwest Coordination Center, which is responsible for 
coordinating and facilitating the movement of wildland firefighting 
assets within the Southwest Area or as needed nationally through the 
National Interagency Coordination Center in Boise, Idaho.
Fire Suppression
    The Forest Service and the Department of the Interior agencies 
manage the primary Federal wildland fire suppression crews and assets. 
The State Foresters and local fire protection districts also provide 
fire suppression crews and assets to the interagency effort and serve 
as partners with the Federal agencies. Fire suppression crews and 
firefighting assets are shared and assigned by an interagency system 
that includes priority for human health and safety, socio-cultural 
attributes and biological/natural resources. In periods of high fire 
danger or during a wildfire incident, Tribal lands are assigned fire 
prevention and/or suppression crews and assets as fire ignition danger 
increases. When a critical fire ignites or a fire builds into a large 
fire on Tribal lands, interagency fire suppression crews and assets are 
directed to the Tribal agencies that manage the affected lands. 
Incident Management Teams arrive at an incident with Tribal Liaison 
Specialists to initiate consultation with affected Tribes on a 
government-to-government basis as management strategies are developed 
for the incident.
Burned Area Emergency Response
    Burned Area Emergency Response (BAER) is a program that addresses 
post-fire threats to human life, safety and property, as well as, 
critical natural and cultural resources in the immediate post-fire 
environment on federal lands. Common post-fire threats include flash 
flooding, mudflows, rock fall, hazard trees and high impact erosion.
    Under the BAER program, scientists and other specialists quickly 
evaluate post-fire threats to human life, safety, property and critical 
natural or cultural resources including traditional cultural properties 
and sacred sites and take immediate actions to manage unacceptable 
risks. BAER assessments begin when it is safe to enter the burned area, 
but usually before the fire is completely contained. BAER may include 
soil stabilization treatments (e.g., seeding and mulching,) or 
structure stabilization treatments such as road storm proofing (e.g., 
constructing rolling dips, and removing undersized culverts, to pass 
water and avoid damage).
    Tribal consultation is an important part of Forest Service BAER 
assessments. BAER team personnel and the forest supervisor consult with 
Tribal governments, including elders designated by the Nation, to 
identify sacred sites, cultural sites and traditional cultural 
properties, and to address mitigation or stabilization treatments for 
those sites.
Planning Rule
    To create more effective and meaningful engagement with Indian 
Tribes, the Forest Service chose to start with coordination and 
collaboration before moving to formal government-to-government 
consultation on the revision of the National Forest System Land 
Management Planning Rule. In 2010, the Forest Service started its 
engagement with all 566 federally-recognized Indian Tribes by hosting 
16 national and regional roundtable sessions followed by individual 
one-on-one Tribal consultation meetings between local Forest Service 
officials and Tribal leaders. In March 2011, Indian Tribes were invited 
to a listening session on the proposed rule with the Forest Service 
subject matter experts available to answer questions. This provided an 
opportunity for Indian Tribes and Alaska Native Corporations to 
continue to be part of the process of developing the rule.
    Following the September 2011 release of the proposed rule, Indian 
Tribes and Alaska Native Corporations were invited to consult at the 
local level. Prior to this date, the Forest Service issued a directive 
requiring a minimum 120-day period for Tribal consultation on the 
development of all new national policy that might impact Indian Tribes, 
allowing more meaningful opportunity to consult. The proposed rule was 
the first national Forest Service policy to implement a 120-day Tribal 
consultation period.
    Since the Rule was issued on April, 12, 2012, engagement and 
consultation has continued. An opportunity for Tribal consultation for 
the proposed implementing directives for the rule was initiated in 
February 2013.
    Additionally, the Agency developed a 21-person Federal Advisory 
Committee to provide recommendations to the Secretary and Chief on 
implementation of the rule. The advisory committee includes Tribal 
representation. To date, 13 forests have begun Tribal outreach and 
dialogue prior to formal consultation as part of land management 
revisions initiated under the new rule. This pre-work fosters 
relationship building as well as provides time for more meaningful 
dialogue. The more formal government-to-government Tribal consultation 
is strengthened and becomes more meaningful and effective.
Climate Change and the Tribal Engagement Roadmap
    The rapidly changing climate has introduced new risks and 
opportunities for tribal forests and forestry. Tribes are adapting to 
the changing climate as they have through centuries of historic 
climatic changes, and in this new and perhaps unprecedented set of 
changes, forests and forestry programs can become an important element 
in that overall adaptation. To manage their forests effectively in a 
changing climate, Tribes need improved access to science-based 
information about the impacts of the changing climate and management 
options for local forests and woodlands.
    The Forest Service Research and Development Tribal Engagement 
Roadmap is a major step in improving the way our research community 
works with and serves Tribes. Under the Roadmap, we are building and 
enhancing partnerships with Tribes, Indigenous and Native Groups, 
Tribal colleges, Tribal communities and InterTribal Organizations. We 
are enhancing communication with Tribes and other Native communities on 
research results that are relevant for their needs, as well as in forms 
and forums that are culturally appropriate and effective.
    In all lines of research of mutual interest, we will include and 
consider Tribes, and keep them involved through the entire research 
process. This includes collaboration in setting research priorities, 
designing projects, implementing projects, and analyzing/disseminating 
results. We encourage Tribal and Native representation in the Forest 
Service workforce through recruitment and outreach, as well as programs 
such as Pathways and other internship opportunities. We also partner 
with Tribal colleges and universities to engage students and Native 
faculty in order to share perspectives and increase their capacity for 
research engagement.
    This effort supports the goals and objectives outlined in the 
agency-wide Tribal Relations Strategic Plan 2010-2013, and contributes 
to the broader Forest Service Tribal Relations Program. Consistent with 
Forest Service national strategic goals and objectives, this strategic 
plan identifies specific goals, objectives, and actions to guide the 
agency. http://www.Forest Service.fed.us/research/Tribal-engagement/
roadmap.php
Sacred Sites
    In 2010, USDA Secretary Vilsack directed the USDA Office of Tribal 
Relations and the Forest Service to review policies and procedures for 
the protection of and access to Indian Sacred Sites on National 
Forests. The results were published in the Sacred Sites Report in 
December of 2012, and the Forest Service began to implement the 
review's recommendations. While the report itself is not a policy, it 
has paved the way for a new approach to do business, encourages better 
use of existing policies, and the creation of new policy where needed. 
Any changes to policy will go through public review and tribal 
consultation. The report does promote flexibility in using existing 
policy to meet the need to protect sacred sites.
    A charter signed in June 2013 established Executive and Core teams 
to develop strategies and actions to implement the recommendations in 
the Sacred Sites Report. The teams are comprised of executive leaders, 
field line officers, and staff officers with a commitment to cross-
cultural understanding and Tribal relationships. These teams are 
working to develop a shared program of work, advance specific 
recommendations in the report, and enhance the relevance of sacred 
sites though first-hand interaction with local Tribal elders and 
medicine people. The teams benefited from exceptional and powerful 
interactions with Tribal leaders regarding the nature of Sacred Sites. 
These interactions provide the teams with insights necessary to develop 
a strategic and inspirational approach for advancing recommendations in 
the Sacred Sites Report.
Anchor Forests
    Forests throughout the United States are negatively impacted by 
fragmentation, wildfire, insects, disease, drought, and climate change. 
The management, harvesting, transportation, and processing 
infrastructure necessary to sustain healthy and productive forests are 
disappearing. As a result, vital ecological systems and economies of 
rural communities are suffering. Anchor Forests are large contiguous 
areas of Tribal trust land that can support sustainable long-term wood 
and biomass production levels; are backed by local infrastructure and 
technical expertise; and are endorsed politically and publicly. Anchor 
Forests are intended to mitigate the above listed negative impacts by 
creating large networks of interdependent local partners to promote 
robust large scale landscapes. The Intertribal Timber Council 
representing over 60 Indian Tribes with forest interests believes that 
Anchor Forests are a ``common sense, multifaceted approach for 
retaining healthy working forests through partnerships, collaboration 
and coordination.'' The Anchor Forests pilot project is a $700,000 
grant from the Forest Service to ITC. The pilot consists of three study 
areas in eastern Washington State involving the Indian Tribal land on 
the Yakama Nation, Confederated Tribes of the Colville, and Spokane 
Tribe. Partners include the Forest Service (Region 6 and Pacific 
Northwest Research Station); Washington Department of Natural 
Resources; researchers from the University of Washington, The Nature 
Conservancy, and the University of Idaho. Data is being gathered for 
six tasks: infrastructure analysis; Tapash collaborative case study; 
institutional capacity; barriers and solutions; tools and funding 
opportunities; and ecosystem services.
    Three recent Indian Forest Management and Assessment Team studies 
spanning the last three decades have indicated Indian Tribal Forests 
have desirable management practices. And, because most Indian Tribes 
have their lands held in trust with most lands considered ancestral 
land, the Anchor Forests will remain intact for future generations.
Special Forest Products
    The Cultural and Heritage Cooperation Authority (25 U.S.C.  3055; 
Section 8105 of the 2008 Farm Bill) gives the Secretary discretional 
authority to provide, free of charge, any trees, portions of trees, or 
forest products from National Forest System lands to federally 
recognized Indian tribes for noncommercial traditional and cultural 
purposes. These products are currently being provided to Tribes under a 
Forest Service Interim Directive. The Department is developing a 
regulatory process to implement the authority. [A Proposed Rule is 
being prepared.] Providing federally recognized Indian tribes with a 
clear and concise process to request forest products for traditional 
and cultural purposes not only will improve our quality of customer 
service but demonstrates respect for our government-to-government 
relationship with Indian Tribes.
    The Forest Service continues to work in partnership with Indian 
Tribes to enhance traditional foods. For example, the Mt. Baker- 
Snoqualmie National Forest and Muckleshoot Indian Tribe have entered 
into a partnership to enhance the production of big huckleberries in 
the Government Meadows area of the Snoqualmie Ranger District, in 
response to Muckleshoot tribal elders concern that berry yields were 
declining. Additionally, UC-Berkeley and the Karuk Tribe plan to 
conduct research with USFS scientists and others to investigate how 
traditional land management techniques impact the productivity and 
availability of traditional Karuk foods, and have been working with the 
Six Rivers and Klamath National Forests under a Memorandum of 
Understanding since July 2012. Through their research, they plan to 
determine what the impact of that management might be on the other 
interests that the National Forests have to also address (such as fire, 
disease, water, and recreation).
Tribal Forest Protection Act of 2004
    The Tribal Forest Protection Act (TFPA) of 2004 provides Indian 
tribes the opportunity to apply for and enter into stewardship 
contracts to protect Indian forest land, including projects on Federal 
land that borders on or is adjacent to Indian forest land and poses a 
fire or other threat to Indian forest land under the jurisdiction of 
the Indian tribe or a tribal community.
    Since the TFPA was enacted, a limited number of federally-
recognized Tribes have used this authority. In an effort to discover 
why the authority has gone underused and find solutions, the Forest 
Service funded a $302,824 cooperative agreement with the Intertribal 
Timber Council (ITC) in 2011. The ITC reported their findings in April 
2013, finding that in many areas, Forest Service and Tribal personnel 
are working together, but that it is not universal. Generally, there is 
some awareness and understanding of TFPA by both Tribal and Forest 
Service personnel, yet there is the need for clear, consistent guidance 
that is readily available to remote locations so new personnel become 
properly oriented and trained in using the authority more effectively. 
Tribes are often unable to actively participate in developing plans for 
restoration of neighboring National Forest System lands due to staff 
and funding limitations.
    Several actions that address the recommendations of the report are 
already in progress. For instance, we have already identified personnel 
to serve on the Agency's TFPA implementation team; those individuals 
will work in conjunction with the ITC and the Bureau of Indian Affairs. 
A framework has been developed, outlining the guiding principles for 
the team that will lead to implementation of the recommendations. In 
addition, the Agency and the Department are working to develop tribal 
relations training including a module that will be required for all 
employees. It will be important to use these training tools when 
considering a training specifically related to TFPA.
    Agreements, such as memorandums of understanding, are excellent 
ways to maintain relationships in the midst of turnover between the 
Agency and Tribes and to lay out expectations and protocols. Several 
agency units have existing MOUs. The team will identify where 
additional MOUs are needed to address TFPA goals and will work with 
units to develop those.
    We also know that Tribes have accomplished several projects that 
meet the intent of the Act but are not considered TFPA projects. It 
will be important to identify that work so that the larger context of 
accomplishments by Tribes can be appreciated.
OTR Mapping Project
    The Forest Service offices of Tribal Relations, Engineering, and 
Forest Management, in cooperation with the Bureau of Indian Affairs, 
are developing an interactive map called Native Connections. This tool 
will be available to Forest Service staff, Tribes, and others, 
providing a visual map across landscapes to identify Forest Service 
land, Tribal lands, and ceded lands all in one place. It will help 
improve decisionmaking on incident and resource management; identify 
cooperative opportunities; honor and strengthen the federal trust 
responsibility and treaty rights; and recognize historic Tribal 
interests and customs relative to contemporary circumstances such as 
forced Tribal removal.
Conclusion
    USDA is ready to assist Tribal governments and communities in 
managing Tribal forests to improve their health and resiliency, and to 
avoid, mitigate or replace lost natural resources, crops, 
infrastructure developments or property due directly to the occurrence 
of wildfire or the post-burn environmental and social consequences. We 
are committed to our government-to-government relationship as 
Sovereigns with Tribes and welcome the opportunity to consult with 
Tribal governments to improve the health of our nation's forests across 
boundaries. Mr. Chairman, Mr. Vice Chairman and Members of the 
Committee, this concludes my testimony. I'll be happy to answer any of 
your questions.

    The Chairman. Thank you, gentlemen. I appreciate your 
testimony.
    I will turn it over to Vice Chair and Ranking Member 
Barrasso for his statement and his questions.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman, for 
holding today's very important oversight hearing, obviously 
healthy forests are vital to many Indian and rural communities, 
including those in my home State of Wyoming. They provide a 
foundation for job creation, economic development and tribal 
cultural preservation.
    A healthy forest requires proper forest management. I 
introduced S. 2132, the Indian Tribal Energy Development and 
Self Determination Act Amendments of 2014 earlier this year. 
This is a bill that would, among other things, create biomass 
demonstration projects over the next several years.
    These projects would help create jobs and spur tribal 
economies. Michael Finley, on behalf of the National Congress 
of American Indians, testified two weeks ago that this bill 
would also provide other ancillary benefits to tribes, such as 
wildfire prevention. Through these biomass projects, tribes 
could thin forests and reduce hazardous fuels to prevent 
wildfires and protect their communities. For that reason alone, 
the bill should be advanced and signed into law this year.
    I look forward to working with my colleagues on this bill 
and that leads to the questions. I can start with you, Mr. 
Washburn.
    You talked about the Indian Tribal Energy Development and 
Self Determination Act to allow the tribes to use the biomass. 
You testified on the provisions of the bill just two weeks ago. 
In that bill, tribes could use this biomass material to thin 
dense forests and suppress hazardous fuels.
    What kind of impacts do you think this use of biomass could 
have on tribal economies?
    Mr. Washburn. Thank you, Vice Chairman, and thank you for 
that bill.
    We actually supported some biomass projects, not around 
this particular subject, forestry, but we have seen tribes 
being very entrepreneurial in the energy space. I think biomass 
is something that we think is part of the future. The all the 
above energy strategy would include this. I do think if we can 
support biomass projects, it is good for the country and for 
tribes.
    Senator Barrasso. Mr. Hubbard, kind of along that same line 
of questioning based on allowing tribes to use biomass 
materials, I believe such use is going to benefit tribes, 
generating revenue and preventing wild fires on Indian lands. 
How would tribal use of the biomass material benefit Federal 
lands?
    Mr. Hubbard. The Anchor Forest concept is a good example of 
how we are trying to capitalize on existing processing and 
infrastructure where we have active management and expand that 
active management across boundaries on all ownerships, 
including the national forests.
    New efforts in biomass help us to find ways of paying for 
that mitigation in a different way than with appropriated 
dollars.
    Senator Barrasso. When you think about 2011, the Wallow 
Fire burned over 500,000 acres across the State of Arizona. In 
December 2011, the Bureau of Indian Affairs report highlighted 
the benefits the White Mountain Apache Tribal Forest Management 
Practice had in reducing the intensity of that fire.
    Is the Forest Service incorporating any of those tribal 
forest management practices into its forest programs?
    Mr. Hubbard. What we are trying to do is a number of 
different explorations: how we do with integrated resource 
restoration, collaborative forest landscape restoration and how 
we do with landscape scale restoration which means crossing 
those boundaries and learning from one another what works the 
best.
    Mostly, it is a matter of where we have enough momentum to 
accomplish that active management and support the industry base 
that it serves.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Vice Chairman Barrasso.
    I would say, God willing, we will be doing a markup on your 
energy bill next Wednesday.
    Senator McCain, if you are ready, you can go. If not, I'll 
ask a few questions and then you can go, whatever you like.
    I'll start with you, Mr. Washburn. You noted the great 
cooperation between tribes and the BIA. How can that be 
maintained without sufficient funding?
    Mr. Washburn. Well, it's difficult. We live in tight fiscal 
times. I will tell you that cooperation helps a lot, especially 
in tight fiscal times. Cooperation is crucial no matter how 
much money we have. Good cooperation can sometimes help during 
difficult fiscal times to plug some holes.
    We certainly need adequate funding to do this job well. It 
is a trust responsibility of the United States, so adequate 
funding is important.
    The Chairman. You talked about investments being critically 
important. I agree. The question is what can you do to make 
sure that happens?
    Mr. Washburn. The Anchor Forest Initiative is a good 
potential solution. The market can help solve some of these 
problems for us because if there is a market for these forestry 
products, there is an ability to thin the forests and manage 
them better, but the market needs some help. The market doesn't 
solve all our problems.
    What we have seen with the market is when the economy went 
down, we lost a lot of mills. We need to be more thoughtful 
about developing those markets and preserving that 
infrastructure, those mills, so the market can continue to work 
because I think the market helps a lot. If there is a market 
supporting the thinning of the forest, that certainly helps.
    The Chairman. There is another issues out there. That is 
the issue of supply for those mills right now because the 
market is there. We will be working with the Forest Service as 
we have in the past to make sure we try to get adequate supply 
for the mills because that piece of infrastructure needs to 
remain there so the government doesn't have to bear the entire 
cost.
    Mr. Hubbard, you talked about the fact that--and it's a 
real world approach--if you have money left over after you 
fight the fires, you put it into hazardous fuel reduction. Is 
that what I heard you say?
    Mr. Hubbard. I think what I tried to say was that if we 
found a way of paying the suppression bill, our priority for 
any other dollars, the first part of those dollars would go to 
that hazardous fuel reduction and restoration.
    The Chairman. That is good because I think prevention is 
absolutely the way to go here to move it forward. The complaint 
we have seen, both in written testimony, at this hearing and 
the witnesses in prior wildfire forestry hearings in this 
Committee and others, is the length of time that it takes for 
the Forest Service to respond to a request from tribes for 
action to fire events.
    For tribes concerned about fuel build up on Forest Service 
land adjacent to reservations, perhaps the only thing more 
frustrating than waiting for a response is falling victim to 
that wildfire that ultimately happens.
    Why do we hear from tribes that the Forest Service is not 
responding to their concerns regarding fuel build up on forest 
land? Is that a valid complaint? If so, what could be done 
about it?
    Mr. Hubbard. I would suggest it is a valid complaint. It is 
a valid complaint because of the amount of hazardous fuel that 
we have to deal with and how we prioritize them. One of our 
more recent ways of prioritizing them is to look at where that 
national forest fuel is at risk to other neighbor values that 
are most important to those neighbors and to look at those 
places first.
    Then the economics comes in, whether or not we have money 
to pay for that or whether we have existing markets to get the 
job done.
    The Chairman. Is this about money entirely or even does 
resources fall into it? If it's about money, it's about money. 
I know it costs a lot to fight fires. Does human resource fall 
into it as far as the problem?
    Mr. Hubbard. Yes, I think to a certain extent it does. We 
are looking at how we can shift some of our expertise around to 
meet the need because there is more need out there than we can 
cover. We know that and that will always be the case. It is a 
matter of making sure we get the right expertise in the right 
place to get these jobs done.
    The Chairman. Senator McCain?

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses.
    As I am sure has already been mentioned, our forest 
communities are experiencing wildfires on catastrophic scales 
we have never seen before. In the State of Arizona, we have 
lost approximately 20 percent of our forest to wildfires over 
the last decade. Today, our Federal Government frequently 
spends over $2 billion fighting forest fires in active years.
    We have a rather striking comparison between what the White 
Mountain Apache Tribe in northern Arizona was able to do with 
forest management following the Rodeo-Chediski fire and the 
Wallow fire.
    In the 2003 Rodeo-Chediski fire, 60 percent of it occurred 
on the Ft. Apache Reservation. In the aftermath of that fire, 
Congress passed laws--the Restoration Act, the Tribal Forest 
Protection Act--and it changed how we managed our Federal and 
tribal forests.
    In 2011, these new forest management techniques paid off 
during the 535,000 acre Wallow fire where less than three 
percent of the burn occurred on the Ft. Apache Reservation. In 
areas where the Wallow fire did burn on the reservation, the 
tree death rate reached only 10 percent and the surrounding 
non-Indian lands, reached 50 percent.
    Wouldn't you agree, Mr. Washburn, that this is a graphic 
example of two approaches to the issue? In other words, the 
White Mountain Apache were able to clear and, through a 
commercial enterprise which maybe we will mention a little bit 
later on, have a situation where a very small amount many some 
years later was burned as opposed to the way that the non-
Indian forest was managed which the next time there was a fire, 
there was a 50 percent burn.
    It seems to me--I'd be glad to have your view--that this is 
a startling contrast between the approaches taken on Indian 
land and non-Indian land. I'd like to hear from both of you.
    Mr. Washburn. Senator McCain, you have long been a leader 
in self governance for tribes and that is a great example of 
where tribes when they are given the resources and given the 
ability to control, along with the BIA, can work really well 
together to address serious problems. It is also a symbol of 
the importance of preventive work.
    I think that does represent great success. I think tribes 
do a really good job when we put them in a leadership position 
to manage their lands. Together with the BIA, we have made 
great strides in Indian country to manage those well and put in 
prevention where we can.
    Senator McCain. Forest clearing matters immensely as to the 
amount of damage. We are going to have forest fires and they 
are probably going to get bigger. We are in the 13th year of a 
drought, as I calculate, in the southwest.
    It seems to me we have the example of vigorous clearing, 
which was an example of tribal sovereignty, versus a very slow 
and hesitant process on non-Indian lands. Mr. Hubbard, maybe I 
am drawing the wrong conclusion there.
    Mr. Hubbard. Not at all. I think those two examples, Wallow 
and Rodeo-Chediski, are good examples of well managed, actively 
managed tribal lands that are more resilient to fire when it 
comes and more resilient than most other lands, whether they be 
national forest system or private. That is a good example. That 
is part of what we must do with the Anchor Forest and build on 
that.
    Senator McCain. You would agree that we can't do it just 
with government money? In other words, it has to be private 
enterprise. There are just not enough tax dollars to do all the 
clearing with just a Federal program. The real answer is to use 
companies that will go out and do the forest thinning and then 
sell that for proceeds. That way it is a free enterprise, a 
profit-making enterprise. Is that right? Would you agree with 
that, Mr. Hubbard?
    Mr. Hubbard. I absolutely agree.
    Senator McCain. Right now we have in Arizona, because of 
another fire that we had, these companies are telling us that 
they don't have enough NEPA-ready acres to sustain their 
stewardship contracts. Are you hearing that?
    Mr. Hubbard. We are hearing that. We have had discussions 
with the region to make sure we are addressing that. We don't 
want to lose the ground we gained for our project.
    Senator McCain. We are hearing there is a sense of urgency 
out there. Senator Flake and I met with Chief Tidwell, he did 
well on this issue which I am sure you probably heard about. 
I'd like you to keep us up to date on that progress.
    Mr. Hubbard. Yes, sir.
    Senator McCain. I think you would agree also that if these 
people go out of business, then no commercial enterprise is 
going to come back to places like Show Low and others where 
they are located.
    By the way, the White Mountain Apache has the largest wood 
processing facility in all of Arizona and maybe even the 
southwest. I am sure you are familiar with that, Mr. Washburn?
    Mr. Washburn. Yes, I am, Senator.
    Senator McCain. It has been a success and the source of 
quite a bit of revenue for the tribe.
    Mr. Washburn. And jobs.
    Senator McCain. I think 145 tribal employees.
    I guess my point here, Mr. Chairman, is we have a situation 
where the Native Americans, thanks to tribal sovereignty, were 
able to move quickly forward after a devastating fire--it was 
huge--and set up an enterprise that is involved in forest 
clearing, that is making money, that is hiring employees.
    Frankly, we have had fits and starts on the non-Indian 
land. The next time we had a fire where only 3 percent of the 
Indian land was burned, we had 50 percent of the non-Indian 
land. There is something wrong with that picture.
    Now we have these fledgling companies in the business of 
sawmills and collecting some of this fuel and they are still 
having trouble getting amount of acreage released so they can 
continue their operations. It is of enough importance to all of 
us that Senator Flake and I met with the Forest Chief the other 
day.
    If you have any recommendations, Mr. Hubbard, as to what we 
can legislatively do, if anything, I would be more than eager 
to hear any recommendations you might have. I hope you are 
giving this issue the priority and a little bit of the passion 
that I obviously feel about it. Is that true?
    Mr. Hubbard. That's true. You did get the Chief's 
attention.
    Senator McCain. That means we can expect immediate action?
    Mr. Hubbard. I think you can expect action.
    Senator McCain. Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator McCain. I very much 
appreciate the line of questions. You are spot on.
    I can tell you from my perspective that there are several 
issues. In fact, the Forest Service, not to make any excuses, 
but the amount of their budget that goes to fires--I am going 
to ask about that in a second--could be used for forest 
restoration and reducing fuel.
    The other thing that is out there is there are few folks 
out there who don't want to cut any trees. They tend to bring 
these guys to court regularly.
    Senator McCain. I think your latter point is really very 
important. Second of all, I'm not sure why the money for forest 
clearing should be in the same pot, very frankly, as fighting 
fires.
    The Chairman. Amen. I look forward to working with you to 
make that happen. I think that is smart.
    Mr. Hubbard, you testified that you have had to divert 
funds from other programs seven out of ten years to fight 
fires. Give me an idea on what that does to your ability to 
manage the forests?
    Mr. Hubbard. It's dramatic. It is not just the money that 
gets moved; it's the timing of the money that gets moved. When 
we go into fire season, we are also into our most active field 
season.
    When we exceed our suppression budget and have to start 
transferring funds from other line items to cover the ongoing 
suppression costs, we won't stop fighting fires, so we have to 
pay for it, then we disrupt that field season, that activity 
that is ongoing. We shut it down and move the money and have to 
pick it up at a later time if the dollars are available.
    Congress has been good about providing supplementals, but 
that is after the fact and definitely affects what we can get 
done during the field season.
    The Chairman. The fractionated lands issue has been 
something we have regularly talked about. There are thousands, 
if not tens of hundreds of thousands, of fractionated lands 
within the tribal Indian reservations. Could you tell me how 
the land buybacks are going and if this is enhancing your 
ability to do forest management or enhancing the tribes' 
ability to do forest management?
    Mr. Washburn. The buyback program, we are getting started 
and it is actually going very, very well. I think we have 
already consolidated more than 185,000 acres of land. We have 
had more than 5,000 sales. I can't tell you how many millions 
of dollars we have already spent out of that $1.9 billion 
Cobell Settlement Fund. It is really starting to ramp up and 
run.
    It will absolutely have some improvements because there are 
certainly a lot of allotments that are forest lands. This 
buyback program, by restoring land to tribes or at least 
fractionated interest of tribes, will restore tribal control 
and its ability to harvest those lands and exercise control 
over those lands in other ways. It will definitely improve 
things.
    If I could respond to the last question a little bit, the 
President, in his budget, did ask for a great increase in our 
budget authority to address mostly forest fire because it is 
true when we have a really bad fire year, it eats into our 
prevention money.
    We have presented to the Congress a proposal that would 
lift the cap for really bad fires. We do that for other kinds 
of national emergencies and would ask Congress to do it for 
forest fires because those of us in the southwest and your 
State as well, know this is a serious emergency and it causes 
devastation to tribes.
    We have heard figures that one percent of the fires takes 
like 30 percent of our budget. We have proposed for that really 
bad one percent that we able to lift the budget caps. We 
strongly understand the need for fiscal restraint but for these 
very serious emergency fire events, we would like to see the 
budget cap lifted so that it can be treated like other national 
emergencies.
    The Chairman. I appreciate the perspective.
    Senator McCain, did you have anything else?
    Senator McCain. No. Mr. Hubbard, we don't want to have to 
call you back up here.
    Thank you and I thank the witnesses.
    The Chairman. I want to thank the witnesses. There will be 
further questions I will submit in writing and other Committee 
members can also.
    With that, we will go to our second panel.
    I will introduce the members of the panel with the 
exception of Mr. Brooks. I will let Senator McCain introduce 
him if you'd like, John. That would be fine with me.
    We have: Danny Breuninger, Sr., President of the Mescalero 
Apache Nation; Mr. Philip Rigdon, President, Intertribal Timber 
Council; Dr. Adrian Leighton, Chair, Natural Resources 
Department, Salish Kootenai Tribal College.
    Senator McCain, would you like to introduce Mr. Brooks?
    Senator McCain. I'd like to introduce Mr. Brooks. He's a 
White Mountain Apache. Mr. Brooks, I want to thank you for the 
great job you all are doing and your stewardship. It is 
important that you are here so we can hear your story of 
success.
    Thank you, Mr. Chairman.
    The Chairman. We will start with you, Danny. As with the 
previous panel, you have five minutes. Your entire testimony 
will be part of the record. If you can keep it as close to five 
as possible, we would appreciate it so we have time for 
questions.
    You may proceed.

STATEMENT OF HON. DANNY BREUNINGER, PRESIDENT, MESCALERO APACHE 
                             NATION

    Mr. Breuninger. Good afternoon, Committee members and 
Chairman Tester.
    My name is Dan Breuninger. I am the President of the 
Mescalero Apache Tribe. Thank you for this opportunity to 
testify.
    The forest is a source of life that provides water, food 
and shelter to our people. Our ancestors roamed the southwest 
but always returned to our sacred White Mountain and its 
forests.
    I have a map of our reservation that illustrates the 720 
square miles here to my right. As you can see, Forest Service 
and BLM lands border our reservation and our ancestral 
homelands. Our people continue to gather medicines and conduct 
ceremonies on these lands.
    For more than a century, we have worked with BIA Mescalero 
Agency to make the forestry program one of the best in the 
southwest. The tribe has created more than 100,000 acres 
through commercial harvests and thinning projects to maintain 
forest health.
    We've done a good job maintaining a healthy forest on a 
shoestring budget, but two things are working against us. The 
Forest Service is not maintaining this lands property. This 
impacts our lands, especially in wildfire situations.
    Also, drought, insects, lightning and flooding all affect 
our forests as well. If you'll notice the picture to my left, 
you'll see the thinned out area. That is the piece on the 
Mescalero Apache Reservation. The densely forested area is part 
of the Lincoln National Forest which has not been treated.
    Whenever you have forests that are still densely forested, 
particularly in a drought situation, they become very 
vulnerable to insect infestation such as the bark beetle that 
you see there.
    The 2012 Little Bear fire showed the impact of an unhealthy 
national forest. This fire started with a lightning strike in 
the national forest. The Service viewed this fire as non-
threatening and allowed it to smolder for days. On the fifth 
day, the fire exploded and raged through the Ski Apache Resort 
and crossed onto tribal lands.
    As the fire approached the reservation, the tribe's prior 
hazardous fuel treatments were critical in preventing complete 
devastation to the Village of Ruidoso and water sources. Our 
hazardous fuels reduction efforts proved that this program does 
work. The fire burned more than 44,000 acres of prime timber 
and destroyed more than 255 homes and other structures. The 
estimated cost of the damage exceeded $100 million.
    I have photos of the fire and damage to Ski Apache Resort. 
The upper right photo shows the fire. The upper left photo 
shows the tribe-owned snowmakers and other equipment to protect 
our significant investment on Forest Service land. The lower 
right photo shows an area that used to be heavily forested but 
now is totally destroyed as a result of the fire.
    For 50 years, the tribe has operated and managed the resort 
under two special use permits. These permits expire at the end 
of this year. The fire cost to the tribe was $15 million to 
repair and replace three damaged ski lifts and currently we 
plan to invest another $2.6 million to add a year round 
attraction a Ski Apache.
    Ski Apache currently generates 350 jobs and contributes 
millions of dollars to the local economy. As a permittee, we 
are responsible for rehabilitation and related costs for our 
structures damaged by the fire. We accept these 
responsibilities, but we are frustrated that it took 18 months 
for the Forest Service to carry out their rehabilitation 
responsibilities.
    Our hope is that our permits will be renewed but also that 
our relationship can be redefined through this process. We 
believe it is time for Congress to consider enhancing tribal 
control over these lands to protect our ancestral homelands, 
sacred sites, investments and jobs.
    Forest management is critical to us. Our reservation and 
nearby communities rely heavily on the watershed sustained by 
the forest as well as on the forest itself. We also owned and 
operated two sawmills which was a forest management tool 
through timber harvesting. The closure of these mills 
eliminated jobs for nearly 300 workers.
    Also, Federal funding cuts over the past five years have 
devastated our forestry program. In 2012, we had to lay off 25 
people.
    In closing, we recommend three straightforward actions. 
First, authorize and fully fund forest management and hazardous 
fields programs in Indian country. Two, enact Senate Bill 1875, 
a bipartisan bill to increase wildfire suppression funding. 
Finally, foster greater cooperation among tribal, State and 
Federal forest managers.
    Our forest is our home. We must work together to ensure its 
health.
    Thank you very much.
    [The prepared statement of Mr. Breuninger follows:]

   Prepared Statement of Hon. Danny Breuninger, President, Mescalero 
                             Apache Nation
Introduction
    Good afternoon Chairman Tester, Vice Chairman Barrasso, Senator 
Udall and Members of the Committee. My name is Danny Breuninger. I am 
President of the Mescalero Apache Tribe (Mescalero Apache or Tribe). 
Thank you for this opportunity to testify on the topic of forest 
management and the need to improve wildland fire prevention in Indian 
Country and nearby forestlands.
Background: the Mescalero Apache Tribe
    Long before the first European settlers came to this land, our 
Apache ancestors roamed the Southwestern region, from Texas to central 
Arizona and from as far south as Mexico to the peaks of Colorado. We 
were protected by our four sacred mountains: White Mountain/Sierra 
Blanca, Guadalupe Mountains, Tres Hermanas/Three Sisters Mountains, and 
Oscura Peak. We traveled the rough Apacheria through mountains and 
deserts but always returned to our sacred White Mountain.
    As Europeans began to encroach on our lands, the Apaches entered 
into a treaty with the United States on July 1, 1852. This treaty, 
known as the Treaty with the Apaches, promised the Tribe a permanent 
homeland in its aboriginal territory. The Mescalero Apache Reservation 
(Reservation), located in the White and Sacramento Mountains of rural 
south-central New Mexico, was created by a succession of Executive 
Orders in the 1870s and 1880s. The Reservation spans approximately 720 
square miles (460,405 acres) across south-central New Mexico. Our 
elevation ranges from 4,000 feet in the Chihuahuan desert plateau to 
over 12,000 feet above sea level in the sub-alpine pine forests. The 
Reservation is home to approximately 4,900 tribal citizens and 
approximately 200 non-Indian residents.
    The original Reservation boundaries included lands that are 
currently held in federal ownership, such as Lincoln National Forest 
(LNF) and Bureau of Land Management (BLM) lands surrounding the Fort 
Stanton State Monument. However, the Mescalero Apache people have 
maintained strong cultural ties to these lands, which constitute our 
ancestral homelands. To this day, we continue to gather plants 
important to our traditions and conduct ceremonies on these federal 
lands. To strengthen our ties to these lands and to have input into 
their management, the Tribe has entered into Memoranda of Understanding 
(MOUs) with federal agencies, including the U.S. military and U.S. 
Forest Service (USFS).
Mescalero Apache Forest Management
    For centuries, we have managed our forests holistically, as a way 
of life, to promote the growth of food and medicinal plants, to manage 
the wildlife in these forests, and to protect our lands from invaders.
    This tradition of forestry was put into formal practice when the 
Bureau of Indian Affairs (BIA) Mescalero Agency opened its Branch of 
Forestry in 1910. Mescalero's first major commercial timber sale was in 
1919. With the opening of the tribally owned Mescalero Forest Products' 
(MFP) sawmill in 1987, the Tribe entered a new era of forest 
management. Today, the Mescalero forest remains one of the best-
managed, healthiest forests in the Southwest.
    For more than a century now, the BIA Mescalero Agency and the Tribe 
have worked together to develop a premier forestry program on the 
Reservation. The BIA Branch of Forestry currently employs 3 
professional foresters and 2 forestry technicians in the Timber Sale 
section. This small staff is responsible for preparing and offering for 
sale lumber at 16.8 million board feet annually and completing all sale 
planning, environmental compliance work, timber sale layout and 
administration. Due to the amount of lumber harvested, the BIA 
identifies the Reservation as a Category 1-Major Forested Reservation. 
Additionally, the Fire Management and Fuels Management Programs are 
each rated as High Complexity. These ratings describe not only the 
complexity of addressing fire concerns across a large landscape but 
also the need for coordinated efforts among programs and agencies. 
Despite the importance of this mission and a small budget, over the 
past five years the Mescalero BIA Branch of Forestry has seen a 43 
percent reduction in its staffing levels.
    Operating on a shoestring budget, the Tribe's Division of Resource 
Management and Protection has been able to provide high quality 
forestry services on the Reservation and has even been able to assist 
the BIA in coordinating timber sales and performing fuels management 
projects. While the local BIA agency oversees the overall management of 
the forest on the Reservation, many of the projects, such as thinning 
for hazardous fuels reduction and timber marking, are completed by the 
Tribe. The progressive working relationship with BIA Forestry and the 
implementation of contracts under the Indian Self-Determination and 
Education Assistance Act (P.L. 93-638) has allowed the Tribe to ensure 
continued success on forest management.
    Out of a total Reservation land base of 460,405 acres, the Tribe 
has treated approximately 42,671 acres through commercial harvest in 
modern times. Through funding allocated under the Department of the 
Interior's (DOI) National Fire Plan program and other federal programs 
starting in 1999, the Tribe has treated an additional 59,094 acres 
through hazardous fuels reduction projects. \1\
---------------------------------------------------------------------------
    \1\ A ``hazardous fuel'' is any kind of living or dead vegetation 
that is flammable.
---------------------------------------------------------------------------
    We view our forest as a dynamic living entity. It provides water, 
food, shelter and a means of providing jobs and revenue for Tribal 
members. When the Tribe first began commercially harvesting timber, 
many opposed the concept. This resistance to proactive forest 
management began to dissipate, however, in 1996 when the Tribe 
experienced its first large fire in recent history, the Chino Well 
Fire. This fire began on a windy spring day in April; and, within one 
day, the fire threatened 42 homes, forcing evacuation and burning a 
seven-mile strip of forest of more than 8,000 acres. Due to the rapid 
fire response of Tribal fire crews, no homes were damaged; but, very 
quickly, we had homeowners wanting to learn how they could protect 
their homes from future wildfires.
    With the advent of the National Fire Plan in the late 1990's, the 
BIA Branch of Forestry worked with the Tribe to develop strategic 
ridgetop fuel breaks and implement wildland-urban interface treatments 
around residential and recreational areas across the Reservation. These 
projects were coordinated with harvest operations, recognizing that 
understory thinning alone would not reduce the potential for 
destructive crown fires. As a result of implementing wildfire 
mitigation measures to reduce fire danger, the Tribe earned Firewise 
Communities/USA recognition in 2003 and was the first tribe in New 
Mexico to earn such recognition.
    Since then, Tribal leadership and forestry staff have provided 
congressional testimony and advised the federal government in 
developing both the Healthy Forest Restoration Act of 2003 and the 
Tribal Forest Protection Act of 2004 (TFPA). In particular, the TFPA 
helped pave the way for the Tribe to work with LNF to develop the first 
Tribal stewardship contract called the 16 Springs Stewardship contract 
in 2006 to implement hazardous fuel reduction projects on adjacent U.S. 
National Forest lands.
    Hazardous fuel reduction projects are vital. Forests are living 
organisms; and, with reductions in density, trees and ground cover are 
better able to thrive. Southwestern forests grow with very little 
precipitation. On the Reservation and in LNF, 26 inches of annual 
precipitation is considered a ``wet'' year. By reducing tree densities 
to ensure the crowns are not touching, we greatly enhance the available 
water, light and nutrients each individual tree receives. With open 
forest conditions, pine seedlings have a better environment to 
germinate, resulting in increased forest regeneration.
    While the Tribe has worked hard to maintain a healthy forest on our 
Reservation, for many years Tribal leadership has been concerned about 
the very dense forest conditions in LNF, which borders our Reservation 
on three sides. These overly dense, unnatural conditions are not 
healthy. Due to the unhealthy condition of the LNF, we have seen the 
escalation of insect populations, including bark beetles and other 
defoliators on the Reservation, and have watched as large swaths of 
USFS lands die around us.
    As bad as it is, it is not too late to remedy this situation. A 
case in point is the successful stewardship contract that the Tribe 
entered into with the USFS. Through the 16 Springs Stewardship contract 
with LNF, the Tribe has treated more than 6,300 acres of LNF lands 
mostly located along the shared boundary between our Reservation and 
LNF. Due to the Tribe's efforts, these USFS lands are much healthier 
than they were. However, there are many thousands of additional acres 
of dense forest within LNF that remain untreated and continue to 
threaten the lives and property of Tribal members and the general 
public.
    In addition to its hazardous fuels management program, the Tribe, 
as mentioned above, owns and operates the MFP sawmill. Using the 
sawmill as a first-line forest management tool, we have been able to 
treat the larger trees of the forest overstory through selective 
harvests. We followed up these activities with hazardous fuels 
reduction projects in the smaller size classes.
    To date, Mescalero has been able to make the most out of a 
shrinking federal budget and a depressed lumber market. The decline in 
the lumber market, combined with process inefficiencies and a lack of 
by-product markets, has resulted in the closure of MFP twice, once in 
December 2008 and again in July 2012. The closure of the sawmill cost 
jobs for 55 mill workers and close to 150 supporting staff (including 
marking, harvesting, hauling, and administrative staff). The Tribe was 
also forced to close a second mill that it owned in Alamogordo, which 
employed 82 workers.
    Needless to say, the closing of these sawmills significantly hurt 
our economy, exacerbating high unemployment conditions on the 
Reservation. The closures are also beginning to impact our ability to 
effectively manage our forest and assist in the management of LNF. 
Efforts are currently underway to fully assess the condition of the MFP 
sawmill and evaluate various management options with the intent to once 
again open the sawmill.
    Even more harmful, in 2012, our forest on the Reservation 
experienced a 70 percent cut in DOI's Hazardous Fuels Reduction program 
funding. For the previous 12 years, Congress had appropriated between 
$2-$2.5 million annually to treat hazardous fuels. In 2012, Congress 
slashed this amount to $800,000, with only $550,000 being allocated for 
Tribal fuels projects.
    These cuts have had direct and real impacts. The Mescalero Division 
of Resource Management and Protection had to lay off a 20-man tribal 
thinning crew and 5 support staff, causing additional unemployment on 
our Reservation. Unless funding is restored, rather than treating 
thousands of acres per year, we will only be able to treat a few 
hundred acres per year.
    Because of the combined lack of milling capacity and hazardous 
fuels reduction funding, Tribal and BIA Foresters have estimated that 
in 20 to 25 years, Reservation forest conditions will be the same as 
those in LNF. Prior to congressional funding cuts, the Tribe was able 
to manage the forest better than LNF on a budget that was a fraction of 
LNF's budget. Failure to restore this modest funding will ensure the 
demise of a hugely successful program.
Little Bear Fire: Lessons Learned
    Nature has provided us a preview of what will happen if the 
Mescalero forestry program is allowed to die. The Little Bear Fire 
started in a modest way on Monday, June 4, 2012. The initial small fire 
was caused by lightning in the White Mountain wilderness in LNF. Over 
the first five days, LNF deployed relatively few assets to contain what 
it thought was a non-threatening forest fire. Firefighters worked only 
on day shifts, air tanker resources were not utilized and helicopter 
water drops were minimal. On the fifth day, the fire jumped the 
fireline and high winds turned the fire into a devastating inferno. By 
that night, the fire had blazed through the Tribal ski area, Ski Apache 
Resort (Ski Apache), and crossed onto Tribal lands. Within two weeks, 
the Little Bear Fire burned 35,339 acres in LNF, 8,522 acres of private 
land, 112 acres of state land and 357 acres of the Reservation. The 
fire also destroyed more than 255 buildings and homes in the region and 
burned 44,500 acres of prime watershed. The overall estimated cost of 
the fire, including suppression and damages, exceeded $100 million.
    A comparison of the impacts of the Little Bear Fire on the 
healthier tribal forests and much less healthy LNF demonstrates the 
need for continued funding of smart fuels management projects. In 2008, 
the Tribe completed an important, cost-effective hazardous fuels 
reduction project on a portion of the Reservation called Eagle Creek. 
As the Little Bear Fire moved across the landscape, the previously 
treated Eagle Creek project area was used as a defensible space to turn 
the Little Bear Fire away from the steep, densely forested terrain of 
the North Fork of the Rio Ruidoso, and prevented complete devastation 
of the Village of Ruidoso source waters. The Little Bear Fire is proof 
positive that hazardous fuels reduction projects DO WORK.
    Many members of the surrounding communities, including our Tribal 
community, felt this fire should have been contained and controlled 
within the first few days after detection. The proximity of the fire 
start to Tribal lands, Tribal infrastructure, the Village of Ruidoso 
and its location within a New Mexico State priority watershed should 
have triggered a more aggressive response to suppress the fire. 
Unreasonable restrictions placed on fire suppression actions within LNF 
wilderness areas contributed to the failure to immediately suppress the 
fire using all available resources. Had Mescalero not managed its 
forest through fuels management projects, the fire would have 
devastated the Village of Ruidoso.
Mescalero Apache Investments in Lincoln National Forest
    As noted above, much of LNF is carved out of the ancestral 
homelands of the Mescalero Apache. Evidence of our connection to LNF 
can be found throughout the forest, from rock art to mescal pits to the 
Apache Trail, which was a prime route for water in the Sacramento 
Mountains. These Mountains are home to the Mountain Spirit Dancers, who 
are holy beings that ensure our well-being.
    Since 1960, the Tribe has leased approximately 860 acres of LNF 
lands under two special use permits to establish, manage, and operate 
Ski Apache. Ski Apache is located on the northern border of the 
Reservation. The land is part of the Tribe's aboriginal homelands and 
is located within the Sierra Blanca Mountain Range, which is sacred to 
the Mescalero Apache people.
    Over the past 50 years, the Tribe has made significant improvements 
to the Resort. Recently, the Tribe invested $15 million to triple the 
ski lift capacity at Ski Apache. In addition, this year the Tribe plans 
to invest over $2.6 million for non-ski, year-round recreation at Ski 
Apache. Ski Apache employs up to 350 people during the ski season and 
contributes many millions of dollars to the local economy in tourists 
and lodgers.
    To protect these investments and our sacred lands, the Tribe has a 
considerable interest in preventing future wildfires and resulting 
flooding that would devastate the Resort.
    Under the current arrangement, the USFS administers these lands, 
and LNF has the legal responsibility to respond to emergencies, such as 
the June 2012 Little Bear Fire. However, it has been the Tribe that has 
acted as the primary first responder in emergency situations. If the 
Tribe had not taken the initiative to protect its own assets, they 
would have been lost in the Little Bear Fire.
    As noted above, Ski Apache incurred significant damage from the 
Little Bear Fire. The Tribe has projected a loss of over $1.5 million 
to tribal assets within the special use permit area due to the fire. 
Because of the volume of trees that were burnt, there existed a real 
danger of flooding that could have destroyed buildings, completely re-
shaped the existing ski runs, and taken out access roads. Due to 
additional investments and work conducted by the Tribe, major flooding 
was avoided.
    Ski Apache is located at the highest point of the Little Bear Fire. 
Failure to address flooding at higher elevations could have made 
rehabilitation at lower elevations less effective. The Little Bear Fire 
crossed the Reservation line at a key topographic area. There are two 
major canyons, Upper Canyon and the Eagle Creek area, that start on the 
Reservation and then lead off the Reservation. Both areas are heavily 
populated off-Reservation.
    Even though the Tribe, as a permittee, is solely responsible for 
rehabilitation and all costs related to the Little Bear Fire, the Tribe 
first had to gain approval from LNF prior to taking such action. Ski 
Apache quickly submitted a request to LNF to begin rehabilitation 
efforts. The request included specific rehabilitation actions. It took 
LNF months to respond. While, LNF committed to cleaning piles of burned 
trees, it took over 18 months for that action to occur. Burning began 
in March of 2014.
    The BIA has a Burned Area Emergency Response (BAER) team that tried 
to communicate with the USDA/LNF/BAER team to discuss rehab, especially 
in the area of these two canyons. However, USDA/LNF/BAER and BIA BAER 
teams lacked coordination to fight fires and flooding, leaving the 
Tribe and Ski Apache left in the middle.
    Little consideration was given to the importance of Ski Apache to 
the overall economy of the area. Closure of Ski Apache for a single 
season would devastate the economies of both the Village of Ruidoso and 
the Tribe. Despite the importance of Ski Apache, LNF prioritized other 
areas for fire rehabilitation efforts instead of Ski Apache.
    The Tribe's special use permits expire at the end of this year on 
December 31, 2014. With this impending expiration, the Tribe believes 
that this is an ideal time to consider enhancing its control over the 
lands that encompass Ski Apache.
Further Identification of the Problems and Specific Recommendations to 
        Improve Wildland Fire Protection in Indian Country
    Tribal forest managers often have a different mission than that of 
federal land managers. For example, Tribal forest managers work to 
protect lives and property on our Reservation. Conversely, BLM 
historically oversees gas/oil/mining permits. BLM has spent millions of 
dollars implementing projects that are called wildland-urban interface 
(WUI) that, in reality, only protect the resources under these permits. 
Likewise, we have seen the USFS propose true WUI projects only to have 
them challenged in court by third parties. Rather than contesting these 
legal claims, USFS often chooses to move projects to areas where there 
is less controversy and less actual fire danger to life and property. 
Although many project acres are treated, these areas are sometimes not 
the areas that most need treatment. The current selective WUI process 
is often implemented at the expense of needed WUI projects that could 
improve the health of federal lands adjacent to our Tribal lands.
    In recent years, due to fires such as Little Bear, annual 
firefighting costs have exceeded federal budget allocations. This 
further reduces funding available for prevention programs such as 
hazardous fuels reduction.
    Tribal forestry programs receive far less funding than our state 
and federal counterparts. A 2013 Report by the Indian Forest Management 
Assessment Team for the Intertribal Timber Council stated, ``Indian 
forests are receiving much less forest management funding per acre than 
adjacent forest land owners.'' BIA allocations to tribes average only 
$2.82/acre; whereas, National Forests receive $8.57/acre and state 
forests in the western U.S. average an astounding $20.46/acre. At one-
fourth to one-tenth of the funding our state and federal counterparts 
receive, tribes are able to accomplish vastly more reductions in 
hazardous fuels and have healthier, functioning forest ecosystems. In 
addition to greatly reducing wildfire hazard on reservations, tribal 
land managers have seen forest thinning treatments result in increased 
water yields despite the current extreme drought situation. This work 
is not sustainable.
    To address the shortfalls and concerns listed above, we submit the 
following recommendations to improve funding mechanisms and methods of 
managing both tribal and nearby federal forestlands.

  <bullet> The Tribe's hazardous fuels treatment and its positive 
        impact in helping stop the Little Bear Fire represents 
        conclusive proof that hazardous fuels treatments save lives, 
        protect property, and maintain healthy forests. Hazardous fuels 
        funding levels must be restored to enable tribes to continue to 
        protect our communities. Each year, more forests throughout the 
        country are burning, more critical watersheds are jeopardized, 
        and more communities are placed at risk. Congress must 
        acknowledge and fulfill the legal treaty and trust obligations 
        of the United States to help protect and care for Indian lands 
        and our forests as permanent homes. Tribal forestry programs 
        must be funded accordingly. Congress should authorize and fully 
        fund hazardous fuels treatment funding for Indian lands and 
        nearby federal lands separately from the national firefighting 
        budgets.

  <bullet> Federal agency reports show that firefighting costs have 
        exceeded budget allocations for 8 of the past 10 years. As a 
        result, federal agencies have taken money from wildfire 
        prevention and hazardous fuels reduction programs. These cuts 
        have devastated the Tribe's forestry program and our proven 
        wildfire prevention efforts. Instead of taking from the proven 
        hazardous fuels reduction program, emergency wildfire should be 
        funded as natural disasters. The Tribe supports the bipartisan 
        proposal put forth in S. 1875, the Wildfire Disaster Funding 
        Act, which was also included in the President's FY15 Budget. We 
        urge the Committee to work with your Senate colleagues to enact 
        S. 1875.

  <bullet> As noted above, it is not enough that tribal forest managers 
        work to protect tribal homelands. Missteps and mismanagement of 
        federal and other nearby lands can just as easily destroy 
        thousands of acres of adjacent Indian lands. There needs to be 
        better and faster interagency coordination among federal land 
        managers. At this time, both the Tribe and LNF are in the 
        process of updating and revising our respective Forest 
        Management Plans. The TFPA provides for meaningful consultation 
        with tribes to develop strategies for protecting Indian forest 
        lands and tribal interests as well as the restoration of 
        adjacent federal lands. Because these lands are part of our 
        ancestral homelands, we need to be able to provide input on 
        management of these lands that goes before and beyond NEPA 
        requirements. In order to move forward with restoration 
        strategies, the USFS also needs to implement new guidelines 
        acknowledging the benefits of selective harvesting that were 
        approved in 2012 under the Final Recovery Plan for the Mexican 
        Spotted Owl. Tribes need to have a greater presence in the 
        development of forest management strategies. We urge Congress 
        to take the TFPA to the next level and actively promote true 
        partnerships. Extending tribal values and management 
        philosophies to National Forests would provide for more 
        holistic management of forested watersheds that do not 
        recognize political boundaries.

  <bullet> As we have seen over the past few years, medium size to 
        severe wildfires like the Little Bear Fire can have devastating 
        impacts to our watersheds and domestic water supplies. The 
        scorched soils become hydrophobic where water is not absorbed 
        into the soil, causing groundwater storage functions to be 
        diminished. The runoff causes highly erosive flooding and 
        debris flows can damage water intake systems. The sacred 
        mountains where we live provide the groundwater recharge for 
        much of southeastern New Mexico. In order to maintain the 
        ecological functions of these watersheds, we need to preserve 
        the infrastructure necessary to commercially harvest and thin 
        the dense forest overstories on USFS lands and Reservation 
        lands. USFS thinning practices, including the practice of 
        thinning from below, are not sustainable. These practices 
        weaken forest structure and reduce biodiversity. The Tribe has 
        already shown its dedication and commitment to proactively 
        managing our lands and preserving both the cultural and 
        ecological integrity of the landscape. Congress must facilitate 
        the regional dialogues necessary for tribal, state and local 
        governments to work together to explore options for 
        sustainable, regional support of forestry infrastructure. All 
        options, including non-traditional funding options from non-
        tribal sources and education missions, should be considered.

Conclusion
    The Reservation is our permanent homeland. Our lands serve as the 
groundwater recharge areas for much of south-central and southeastern 
New Mexico. We cannot allow a century of work to restore forest health 
and reduce the threat of wildfire simply fall by the wayside. Congress 
must work with tribes to find large-scale long-term solutions to this 
problem to maintain the forestry infrastructure necessary to accomplish 
a fully integrated forest health treatment program that will help 
maintain our way of life, create jobs in Indian Country, and sustain 
the vital watershed for the Apache people and our neighbors.

    The Chairman. Thank you for your comments, Dan. We will get 
back to questions in a minute.
    Phil Rigdon, you're up.

   STATEMENT OF PHILIP RIGDON, PRESIDENT, INTERTRIBAL TIMBER 
                            COUNCIL

    Mr. Rigdon. Good afternoon, Mr. Chairman and Committee 
members.
    Indian forests cover 18.6 million acres, about one third of 
all Indian trust land. Tribes strive to manage forests for the 
triple bottom line--sustainable economic, ecological and 
cultural values. We are stewards for generations yet unborn. 
Our decisions reflect thoughtful deliberation of risks posed by 
fire, insect, disease, drought and threats from hazardous 
conditions on neighboring Federal forests and by emerging 
challenges from climate change.
    Our forests are held in trust by the United States for our 
benefit. Management is guided by tribal direction or 
participation under Public Law 93-638 contracts and our 
partnership with the Bureau of Indian Affairs.
    Increasingly, this has led to the development of 
responsive, flexible and innovative management approaches. 
Today, severe consequences of chronic under funding and under 
staffing of the Indian forests are materializing.
    My testimony today reflects a variation of the theme of 
this hearing, the lack of adequate investment in our forests 
will result in continued deterioration. The Third Independent 
Indian Forest Management Assessment Team report provided to 
Congress and the Administration last June found that in 
constant dollars, BIA fiscal year 2014 forestry funding is 24 
percent below the fiscal year 2001 levels.
    Total Federal funding for Indian forests, both BIA 
management and Office of Wildland Fire is only one third of 
that per acre for the Forest Service. An additional $100 
million is needed on an annual basis to meet the minimum 
requirements for trust management and an additional $12.7 
million is required per year to improve staffing and skill 
level development.
    Staffing is down 13 percent from 1991. Additionally, 800 
staff positions are now needed. We are facing the loss of 
expertise from the great tsunami of the aging workforce. We 
experience high vacancy rates for forest positions and 
difficulties in recruiting and retaining replacement staff.
    Using my reservation as an example, Yakama is the largest 
tribal forest and of the 55 BIA forestry positions at Yakama, 
33 are unfilled due to budget shortfalls and insufficient pools 
of replacements. BIA cannot achieve my tribe's timber harvest 
targets, costing us jobs and economic opportunities and 
increases the risks to the health and productivity of our 
forest and its ability to provide for the water, fish, 
wildlife, foods and medicines so vital to our way of life.
    In addition, to the mounting challenges from funding and 
staffing shortfalls, we are facing increased risks from 
catastrophic loss of tribal forests from wildfire, insect, 
disease and droughts. While funding to address wildfire threats 
has been appropriated in recent years, tribal participation has 
been inequitable, both in fuels management and preparedness 
funding.
    For instance, at our agency, Yakama receives 57 cents per 
acre for preparedness while nearby forests get between $1.18 
and $2.83 per acre. Tribes are now working with the Interior 
Office of Wildland Fire to try to correct these disparities.
    The consequences of failing to invest in our forests are 
dire. Community service is suffering and social welfare costs 
are escalating as tribes divert scarce funds to try to care for 
our forests. Deterioration of our forests will increase 
unemployment, reduce economic opportunities and exacerbate the 
social problems.
    We try to cobble together programs piecemeal, relying on 
short term soft money grants that are unstable and have high 
administrative costs. The situation is now reaching crisis 
proportions.
    Mr. Chairman, I realize this is not an appropriations 
committee but despite our best management efforts, the chronic 
erosion of funding is crippling us and placing our forests in 
great peril. I ask you to communicate the needs to address the 
situation to the Administration and to the Appropriations 
Committees.
    This Committee, however, can help preserve our forests by 
taking preventive measures to institute active management. 
Active management has made our forests more resilient to fire, 
has reduced the severity and intensity of wildfires and enabled 
us to carry out post-fire recovery more quickly and 
effectively.
    Active management is needed across the landscape to fulfill 
fiduciary responsibilities to protect the health and 
productivity of the tribal trust forest. To advance our active 
forest management, the ITC would like to work with the 
Committee on several legislative concepts including amending 
the Tribal Forest Protection Act of 2004 setting aside Forest 
Service funding to improve the ability of tribes to carry out 
forest fields and health projects on adjacent forests and to 
provide a means for direct long term tribal management of 
neighboring forests, Federal public forests perhaps under a 
leasing contract or assignment arrangement.
    We would suggest supporting the Anchor Forest concept to 
facilitate collaboration of tribes and their forest 
neighborhoods and Federal, State and private to actively 
management the lands to support forest health and forest-
reliant communities.
    Finally, we would suggest supporting the tribal 
environmental laws and regulations with forest resources. The 
HEARTH Act and the Indian Energy Act are examples where this 
type of authority has been provided.
    Despite chronic funding and staffing deficiencies, IFMAT 
III found that tribes have been able to create forestry 
programs that can serve as models of sustainability. However, 
Chairman, we are now running on fumes. We are facing an ominous 
future as cumulative impacts of chronic under funding and under 
staffing of the Indian forests come home to roost.
    Increased investment and new legislative authorities are 
needed to prevent forests and communities from being placed in 
grave jeopardy.
    Thank you for my testimony.
    [The prepared statement of Mr. Rigdon follows:]

  Prepared Statement of Philip Rigdon, President, Intertribal Timber 
                                Council
    I am Phil Rigdon, President of the Intertribal Timber Council (ITC) 
and Natural Resource Deputy Director for the Yakama Nation in South-
central Washington State. On behalf of the ITC and its more than 60 
member Tribes, I am here to share observations, concerns and 
recommendations over the management of our nation's forests.
    Tribal forests are critical to the ability to restore and sustain 
the health and productivity of ecosystems across the landscape. On a 
total of 334 reservations in 36 states, 18.6 million acres of 
forestland are held in trust by the United States and managed for the 
benefit of Indians. Pursuant to both tribal direction and federal law, 
tribal forests must be sustainably managed. Indian tribes work with the 
Bureau of Indian Affairs (BIA) and others to actively manage our 
forests and other resources within a holistic, integrated approach that 
strives to simultaneously sustain economic, ecological, and cultural 
values, the so-called ``triple bottom line.'' We operate modern, 
innovative and comprehensive natural resource programs premised on 
connectedness among the land, resources, and people. Our approach 
reflects the concept of reciprocity. If we care for the land, it will 
care for us. If we neglect our stewardship responsibilities, our lands 
and communities will suffer.
    Our management approach is balanced. We protect our resources yet 
we understand that utilization is essential to enable us to meet the 
``triple bottom line.'' We rely on our forests to provide employment 
and entrepreneurial opportunities and to generate income needed to care 
for the land and provide services for our communities.
    Pursuant to federal statute (P.L. 101-630, Sec. 312), management of 
our forests is evaluated every ten years by an independent scientific 
panel. In 2013, an Indian Forest Management Assessment Team (IFMAT) 
completed the third independent evaluation of the status of Indian 
forests and forestry. The IFMAT III report shows that tribes are 
suffering from chronic underfunding and from challenges created by the 
loss of leadership and staffing, but still notes that tribal forests 
can serve as models of sustainable management that other federal 
agencies could follow.
    Ecological Conditions: Tribal forests must meet the same goals as 
other federal lands, and are subject to both NEPA and the ESA. But we 
are able to meet, and often exceed those goals. We live with the 
consequences of our actions and are driven to meet the ``triple bottom 
line.'' If forests are overcut or devastated by wildfire, we lose 
revenue and jobs, the myriad ecological benefits we rely upon from our 
forests, and the traditional and cultural sustenance our forests have 
provided since time immemorial. The active management tribes employ to 
realize the ``triple bottom line'' is facilitated by three elements:

  <bullet> The fact that our forests held in federal trust are for the 
        use and benefit of our tribes and their members and, within the 
        scope of the trust, are subject to the direction of our tribal 
        governments,

  <bullet> The federal law guiding BIA and tribal management of these 
        trust forests, the National Indian Forest Resources Management 
        Act of 1990 (P.L. 101-630, Title III), is the most recent and 
        most flexible federal forest management statute, and

  <bullet> The Indian Self-Determination Act (PL 93-638) has enabled 
        tribes to assume direct and comprehensive management of our 
        forests.

    The Tribal forest of the Menominee Nation in Wisconsin is a clear 
display of the ``triple bottom line.'' As the Menominee Tribal 
Enterprises publication ``The Forest Keepers'' stated back in 1997, 
``The 140 year history of forest resource use and management of the 
Menominee forest stands as a practical example of sustainable 
forestry--forestry that is ecologically viable, economically feasible, 
and socially desirable. This refers not only to forest products and 
social benefits, but also to wildlife, site productivity, and other 
ecosystem functions.''
    Individual tribal witnesses at today's hearing will provide the 
Committee with other examples of how different tribes fulfill their 
stewardship obligations to protect the interests of the generations yet 
unborn.
    While IFMAT III certainly identifies possible improvements, our 
demonstrated successes in innovative forest management offer striking 
examples that can and should be replicated across the landscape. The 
ITC offers the following administrative and legislative recommendations 
that will help all rural communities and federal forests; tribal and 
non-tribal.
    IFMAT III Recommendations: The 2013 IFMAT report identified 68 
administrative and legislative recommendations to improve forest 
management in Indian Country. Last fall, the ITC requested that the 
Interior Department appoint an IFMAT implementation team that includes 
the Assistant Secretary for Indian Affairs, the BIA Director and Chief 
Forester, and others. That team has recently been appointed by the 
Interior Department, and we are urging the Forest Service to designate 
a participant as well. We hope that the Team's work can begin soon so 
that the analysis provided by the IFMAT report will not go stale or be 
abandoned to some dusty shelf.
    Funding: One of the key findings of the IFMAT III report is that 
the chronic underfunding noted in the previous two IFMAT reports 
continues. On a per acre basis, tribes receive only about one-third the 
funding for forest and wildfire management as the Forest Service. Yet, 
with our holistic approach and a less constrained statutory and 
regulatory framework, we are able to do more with less, providing more 
flexible, varied and responsive management than other federal forest 
managers.
    But while tribes are able to do more with less, we are being 
confronted with increasing, unprecedented challenges. Federal funding 
is now so insufficient and staffing levels so inadequate that the 
ability to fulfill fiduciary trust obligations and provide the economic 
and ecological benefits needed by our communities is very much in 
doubt.
    IFMAT III's finding that tribal forestry is funded at only one 
third the per acre amount for the Forest Service is based on total 
combined amounts provided tribal forests from both Interior's Wildland 
Fire program and B.I.A. funds for forest management. Within that 
combined total, BIA funding for tribal forest management programs has 
seriously eroded over the past twenty-three years. In terms of constant 
dollars, BIA per acre funding for forest land management declined by 22 
percent between 1991 and 2011 and 31 percent between 2001 and 2011. We 
note, and appreciate, that BIA Forestry funding has increased $5 
million for FY 2014, but even with that increase, our funding is still 
24 percent below 2001 purchasing power.
    Because funding drives almost every aspect of forest management, 
its broad erosion affects virtually all aspects of the BIA program, 
including on-the-ground projects, technical support, staffing and 
leadership. For tribal forests that rely on comprehensive active 
management, this chronic under-funding is taking its toll. Using the 
Yakama Nation as an example, we typically have 55 BIA forestry 
positions to help manage our forest. Currently 33 of those are vacant 
because of budget shortfalls, an insufficient pool of available 
manpower, and BIA delays in filling vacancies. The Tribe has diverted 
funds from other Tribal functions to help mitigate that loss, but this 
reduces our capacity to provide sorely needed services to our 
communities and cannot be supported over the long-term as the BIA fails 
to meet its trust responsibility. Meanwhile, the lack of staff is 
preventing the Yakama Nation's harvest targets from being met and 
resulting in lost economic opportunities and jobs.
    The rise of wildland fire and its associated funding in recent 
years has masked the growing deficiency of BIA forest management 
funding. For instance, the increase in wildland fire fuels management 
projects has helped, to a degree, to ameliorate the growing inadequacy 
of the BIA forest management thinning programs, as there is some 
overlap in the goals of these two functions. But these are only 
emergency patchwork efforts to stave off crisis, have very narrow 
application that fails to recognize interdependence of forest 
management and wildfire risk, and cannot be relied upon as a substitute 
for adequate funding of the base BIA Forestry program.
    With BIA's Forestry funding deficiency steadily mounting over the 
past twenty-plus years, any source of additional support is welcome. 
The improvement in the Interior Department's wildland fire funding 
would be helpful for tribes, but our participation in the Interior 
Department's wildland fire funding has not been without problems.
    As with funding for forest management generally, wildland fire 
funding for tribal forests has not been equitable. Using my own 
Reservation again as an example, the Yakama Nation is funded for fire 
preparedness at $0.57 per acre per year while the adjacent Gifford-
Pinchot National Forest is funded at $1.18 per acre per year; and the 
Mount Hood National Forest at $2.11; the Columbia Gorge National Scenic 
Area at $2.83--nearly five times what we receive at Yakama. This 
unconscionably disparate funding was a major factor in the Yakama 
Nation's recent loss of 20,000 acres of timber in the Mile Marker 28 
Fire. When the fire just started, we could only send one piece of heavy 
equipment--a tanker truck--because our federal preparedness budget only 
supports one heavy equipment operator for our entire 1.1 million acre 
Reservation. While a bulldozer was also needed and available, we didn't 
have a person to operate that equipment. The fire got away and burned a 
total of 28,000 acres, including 20,000 acres of our trust forest 
resource.
    Wildland fire and its budget play a significant role in the 
management and preservation of our trust forest assets, upon which 
tribes rely for governmental revenues and community employment. Yet in 
the past, when the Office of Wildland Fire Management established 
funding distribution policies and formulas under its Hazard Fuels 
Priority Allocation System (HFPAS) that greatly disadvantaged the 
tribes, we were held off at arm's length from almost any real and 
meaningful consultation, despite our repeated objection. Today, we hope 
those contentious times are behind us.
    The Interior Department's Office of Wildland Fire Management has 
recently been working diligently to try to increase tribal 
participation in the Department's wildland fire program. The ITC 
greatly appreciates this effort and hopes the Department will embrace 
the Administration's policy of meaningful tribal consultation to 
improve tribal engagement in the future.
    Indian forests are experiencing challenges caused by ownership 
fragmentation and threats from wildfire, insects, disease, drought, and 
climate change, all of which are increasing every day. We are losing 
the management, harvesting, transportation, and processing 
infrastructure to provide the economic benefits needed to maintain 
healthy forests across the landscape. The inability of federal agencies 
to overcome gridlock and polarization that impedes management of their 
land is creating hazardous conditions for our forests and communities. 
Transaction costs of forest administration are increasing and fleeting 
economic opportunities are being lost as burdensome business models 
promulgated by bureaucracies like the Office of the Special Trustee are 
being imposed. Tribes are being increasingly called upon to provide 
funding for resource management at the expense of other pressing needs 
or by piecing together programs with soft money to try to address long-
term issues. Our capacities are being strained to the breaking point. 
Our trust forest resources are at significant and increasing risk.
    Wildfire & Recovery: Compared to other managers of federal forest 
land, tribes are better able to use scarce resources to prepare our 
forests for fire, recover after fire and ensure the continuity of 
forest resources for generations to come.
    First, tribes are not hamstrung by cumbersome administrative 
procedures or the imposition of policies that fail to protect the 
resources and values that are vital to our communities. For example, we 
understand that there are circumstances in which a ``let it burn'' 
approach would increase the risk of catastrophic loss given the current 
overstocking and forest health conditions found across the landscape. 
Active management treatments are needed to address unnatural fuel 
conditions in the forest prior to letting fires serve their natural 
role across ecosystems.
    When we experienced budworm infestation on the Yakama Reservation, 
we prioritized timber sales to treat areas that were most severely 
affected. Between 1999 and 2003, silvicultural treatments were 
implemented on approximately 20,000 acres of budworm habitat per year. 
The epidemic peaked in 2000 when the budworm defoliation affected trees 
on 206,000 acres. As a result of the Yakama Nation's silvicultural 
treatments, defoliation decreased dramatically. In 2002, only 1,207 
acres showed signs of defoliation--a reduction of over 99 percent. 
Significant economic value was recovered from dead and dying trees 
while forest density was reduced, promoting forest health and 
resiliency. While such forest health treatments are common on tribal 
lands, it would be a challenge to find a similar example of speed, 
scope and effectiveness on neighboring federal forests.
    I must also hasten to point out that today, on Yakama, we would not 
be able to conduct such an effective response. To move that volume of 
timber requires boots on the ground, and today the BIA forestry staff 
at Yakama has been so decimated that we are unable to meet our regular 
harvest target, let alone such an accelerated emergency removal of 
material. If we were confronted today with circumstances similar to 
those in the late 1990s, tens of thousands of acres of trust timber 
would likely be left to die and deteriorate on the stump, with serious 
consequences for increased insect infestations and fire, and unwanted 
impacts to our people and economy.
    Tribes also respond to fires more effectively. While the comparison 
is not completely equivalent, the average size of a fire on BIA-managed 
lands is typically one-third the size of those on Forest Service land. 
Even after fires, BIA and tribes are able to respond far faster than 
other federal agencies to recover economic value and begin the 
rehabilitation process. The 2002 Rodeo-Chediski fire burned 467,000 
acres of Tribal and federal land, including a significant amount of the 
timber on the Fort Apache Indian Reservation. While significant damage 
was done to the Tribal forest, the intensity of the fire was 
dramatically less on Tribal land as the result of the Tribe's stand 
density treatments and follow-up prescribed burning to maintain stand 
vigor and resiliency and minimize unwanted impacts to tribal resources.
    Tribal forest management in that southwestern part of the country 
served as a model for active management, salvage and rehabilitation. 
Within months of the Rodeo-Chediski fire, the White Mountain Apache 
Tribe was removing up to 500,000 board feet of fire-killed timber a day 
and managed to salvage over a hundred million board feet of fire-
damaged timber before value would be lost to decay and disease. In 
contrast, the Forest Service faced litigation that delayed salvage 
operations, reducing the value of salvaged timber and increasing the 
cost of the operation.
    After the Rodeo-Chediski fire, the effectiveness of the White 
Mountain Apache's thinning program to actively treat the land was amply 
demonstrated as treated areas were proven to substantially reduce 
damage and risk to property. When the devastating Wallow Fire ravaged 
the area in 2011, the White Mountain Apache treatments were credited 
with stopping the westward advance of the fire onto the Reservation.
    Tribal interests in healthy landscapes go beyond our reservation 
boundaries. Many tribes have off-reservation treaty and other reserved 
rights on our ceded lands that became National Forests. Catastrophic 
wildfire on these forests directly and negatively impact tribal 
reserved hunting, fishing, gathering and trapping rights and cultural 
resources like burial grounds and sacred sites. Moreover, wildfires 
that start on federal lands often burn onto tribal forests and damage 
watersheds that protect our water and soils. Even with effective 
treatments on our own lands, severe wildfires from adjacent federal 
lands inflict significant damage and economic cost to tribal forests.
    Administrative Recommendations: Some of IFMAT III's administrative 
recommendations include:

  <bullet> Addressing staffing shortfalls with recruitment, training 
        and retention programs to provide well qualified staff and 
        leadership for the management of our forest resources;

  <bullet> Reducing or eliminating costly administrative requirements;

  <bullet> Better defining BIA's trust standards for the management of 
        tribal forests;

  <bullet> Separating trust operations from oversight responsibilities;

  <bullet> Investing in harvesting, transportation, and processing 
        infrastructure to provide the means to sustain forest health, 
        produce ecological benefits, and provide employment and other 
        economic opportunities; and

  <bullet> Allowing self-governance tribes to develop their own 
        procedures for implementation of NEPA, replacing BIA NEPA 
        manuals and handbooks.

    Legislative Recommendations: The IFMAT report also contained 
recommendations for restoring and maintaining working forests on the 
landscape to sustain ecological functions and support rural economies, 
a key one of which is the ``Anchor Forests'' concept. Like other forest 
land owners, Indian tribes are being challenged by the impacts of 
disappearing management, harvesting, transportation, and processing 
infrastructure on their capacity to realize the economic benefits 
needed to maintain healthy forests and economies. Many of the sawmills 
that used to operate in Indian Country have been closed; only six 
tribal lumber mills are currently operating. The vast majority of 
tribal timber is sold to non-tribal mills. Particularly in places like 
Idaho, Oregon, Washington and Montana, tribal timber has helped fill 
the gap of a faltering federal timber program, but those areas too are 
experiencing an infrastructure decline. The ITC is exploring the 
concept of establishing Anchor Forests to provide a framework for 
collaboration across ownership boundaries to sustain healthy, 
productive forests on the landscape. Because tribes are committed to 
long-term forest retention and stewardship, coupled with proven 
management expertise, Indian forests are prime candidates to serve as 
anchors to achieve ecological and economic goals by preserving forest 
products infrastructure needed both for economic vitality and forest 
health treatments.
    Currently, ITC is working with four Tribes, Forest Service Region 6 
and other forest stakeholders to evaluate the feasibility of 
establishing Anchor Forests in three areas of central and eastern 
Washington State and Idaho. Elsewhere around the country, ITC has 
received expressions of interest in Anchor Forests from tribes in the 
Lakes States, the Midwest and the Southwest. We would like to work with 
Congress to create legislative direction for this concept.
    Second, ITC recommends amending the Tribal Forest Protection Act 
(TFPA) or other authorities to expedite consideration, approval, and 
implementation of TFPA projects. In 2004, Congress passed the TFPA to 
provide tribes a means to propose projects on adjacent federal lands 
that would protect tribal rights, lands, and resources by reducing 
threats from wildfire, insects, and disease. This is similar to the 
``good neighbor authority'' that Congress has provided states.
    Unfortunately, the TFPA has not met expectations on the ground. 
Since 2004, only six TFPA projects have been effectively implemented on 
Forest Service lands. Others have languished for many years in the NEPA 
process with little hope of completion. We note the determined but so 
far fruitless efforts of the Tule River Tribe in California as an 
example. As depicted in the Appendix of the April 2013 ITC report 
``Fulfilling the Promise of the Tribal Forest Protection Act of 2004,'' 
the Tule River Tribe has struggled for 10 years since enactment of the 
TFPA to obtain a TFPA project to treat conditions that threaten sequoia 
forests on and near their reservation. To date, their efforts have not 
been able to overcome a seemingly endless environmental review that is 
only exacerbated by frequent turnover of local Forest Service staff, 
including since 2005 five different Forest Supervisors, three different 
District Rangers, and four different lead planners.
    With the ITC TFPA implementation report, which was done in 
collaboration with the Forest Service and BIA, we hope that a 
combination of administrative cooperation and legislative action to 
implement the report's recommendations can bring the TFPA to realize 
the potential Congress intended. We would like to explore TFPA 
improvements with you.
    Third, ITC is working on a legislative idea whereby tribes could 
assume long term management authority--we refer to it as ``stewardship 
assignments''--with federal land managers to address emergency 
conditions on Forest Service and BLM lands that threaten tribal forests 
or tribal rights on federal land such as hunting and protection of 
cultural resources. This concept, involving longer timeframes and more 
comprehensive tribal management than TFPA, would enable tribes to apply 
performance-based active and holistic ``triple bottom line'' forest 
management to imperiled and threatening nearby National Forest and BLM 
lands to restore long term health, productivity and sustainability. We 
note that legislation has been introduced in the House to turn Forest 
Service and BLM lands over to states for management (H.R. 3294, the 
State-Run Federal Lands Act).
    Summary: We believe the nation would benefit greatly by looking to 
Indian forests as models of sustainability. We can help move the 
country forward to create a healthier, sustainable future for our 
forests and natural resources. We recommend that the Congress and the 
Administration work collaboratively with the ITC and timber tribes to 
implement the recommendations of IFMAT III.
    We believe that tribal and other forestland owners are suffering 
from the lack of cohesive and comprehensive policy and programs for our 
nation's forestlands. A solid foundation for the future is needed now. 
We recommend that a high level task force or commission, with 
representation from Congress, the Administration, tribes, academia, 
private industry, small forest landowners, and others be appointed to 
develop practical recommendations to restore and maintain healthy, 
productive forests on the land. Such an effort would require effective 
leadership and an ambitious timeframe for completion. The need is 
urgent. The nation's forest circumstances are dire and getting worse 
with each passing day. Without a unifying actionable vision and the 
means to attain it, everyone will suffer the consequences of our 
nation's forests' continued deterioration. Somehow, we must 
collectively muster the will to care for the land with the respect and 
proper stewardship it needs so that it can care for us.
    Either as part of a federal forest renewal effort or on a stand-
alone basis, the full funding of the BIA trust Forestry program is 
essential. The degree of the BIA's current Forestry funding inadequacy 
is underscored by the Cobell-related tribal trust mismanagement 
lawsuits, the settlement of which cost the United States more than $1 
billion. Although the terms of each tribe's settlement are 
confidential, it is certain that mismanagement of tribal trust forest 
assets was a significant element in the lawsuits and their settlements. 
It is startling and deeply disturbing that the BIA's Forestry budget--
the same insufficient budget that subjected the U.S. to many millions 
of dollars of liability--has failed to reflect a concerted attempt to 
meaningfully address the very deficiencies that led to the necessity 
for these settlements.
    While we again note with appreciation the recent $5 million 
increase in BIA Forestry funding, IFMAT III finds that, to meet minimum 
requirements for management and protection of Indian forests, a $100 
million increase is needed for the BIA Forestry budget, including an 
additional 800 staff positions, and a separate $12.7 million increase 
is needed for staff recruitment and training. The Administration's 
insistence on crippling natural resource budgets can only generate new 
management insufficiencies and failures, and lead to renewed trust 
mismanagement lawsuits that will cost the U.S. additional billions and 
cost the tribes untold lost employment, governmental revenue, and 
economic opportunity. This vicious cycle of trust management 
insufficiency must be broken, and we urge this Committee to convey this 
message to the Administration and your colleagues on the Appropriations 
Committee. We are sustainably managing our forests in an exemplary way, 
but cannot continue our upward path without timely and strategic 
investment and access to the management of a broader land base. You can 
help us achieve both.
    We stand ready to help. To share what can be done to save our 
forests and see firsthand how tribes care for our lands, I invite you 
to visit Indian country. Come see our forests.
    Thank you for the opportunity to testify today.

    The Chairman. Thank you for your testimony, Phil.
    Jonathan Brooks, you are up.

  STATEMENT OF JONATHAN BROOKS, TRIBAL FOREST MANAGER, WHITE 
                     MOUNTAIN APACHE TRIBE

    Mr. Brooks. Thank you, Mr. Chairman and members of the 
Committee. It is an honor to be here today.
    We have already heard the example of the White Mountain 
Apache Tribe's active forest management and the resilient and 
health forests that we create through our management.
    Why do we manage our forests? We have heard about all the 
benefits--ecological, cultural and financial--attained by 
active forest management. We live in these forests. We don't 
just recreate, don't just get money but they are homes since 
time immemorial. We make a living and have so many benefits as 
my testimony states.
    How are we able to do all this management? That is the 
question. What happens on tribal lands like White Mountain 
Apache lands compared to the national forest lands? How does 
this happen? We have to. It has to occur. We understand that a 
healthy, resilient forest is one that is prevented from 
wildfire.
    If you have a wildfire, you will have devastating 
consequences and you will not have a sustainable forest. People 
are not going to be able to have the opportunities that exist.
    Environmentalists, the Forest Service, how they get 
mitigated, they say that active forest management--logging, 
thinning, prescribed burning--there are associated negative 
consequences but it is not true. An actively managed forest is 
one that is healthier, more resilient and all the benefits are 
there--wildlife benefits, habitat, water quality is protected 
and saved, there are financial and ecological benefits, 
cultural resources and sacred and holy sites are protected. It 
is interesting that people say unmanaged forests are better 
than managed forests.
    My question is what is more hurtful--logging, thinning and 
prescribed burning or Rodeo-Chediski fire, erosion that 
destroys the forest? Watersheds and livelihoods are destroyed, 
lives and property are threatened. What is more hurtful, an 
actively managed forest or one that is not managed?
    Rodeo-Chediski, the rehabilitation cost alone was $15 
million and cost still continues today, just for the 
rehabilitation, post-fire rehabilitation. If you look to the 
left, we have an 800-acre fire that occurred on the reservation 
last year--800 acres in red, the yellow are two prescribed 
burns of 1,900 acres.
    The wildfire cost $2 million to suppress for a total of 
$2,750 per acre costs. The prescribed burn cost $21 per acre, a 
total of $40,000 and used 16 personnel to treat 1,900 acres. 
The wildfire used 490 personnel to fight that fire.
    The fire started in the lefthand corner and as it 
progressed to the northeast, the fire picked up intensity. At 
its hottest and most intense point, it reached our prescribed 
burn. As you can see, it is kind of difficult, but the brighter 
red areas show where the fire burned into the prescribed burn. 
It was pretty much halted, stopped in its tracks.
    Rodeo-Chediski was the same thing--hot, intense, infernal 
burning. Here on the right, you can see. The brighter the pink, 
the more intense the fire, the more devastation was caused. 
Anywhere that is not pink on the reservation, you see the 
yellow line that is the fire boundary or the reservation 
boundary, anything below that yellow line, you can see there is 
a lot less pink and it is overlaid with forest management 
treatments--thousands of acres of logging, thinning, prescribed 
burning.
    What happens on the other side, as soon as the fire gets to 
the Forest Service again after going through our treatments 
where it laid down, it picked up intensity again. There is more 
pink. Fire reaches our treated areas, it shows down and reduces 
its intensity. Green forest is left behind. It gets to the 
Forest Service side and there is more devastation.
    The Wallow fire was mentioned, another great example of 
what our forest management has done. It is our legacy at White 
Mountain Apache Tribe. It needs to occur. Why doesn't it happen 
on Forest Service land or litigated? They have all these 
concerns.
    The Tribal Forest Protection Act is a very valuable tool 
that we have employed at White Mountain Apache. We were able to 
treat 1,500 acres of Forest Service land. The tribe proposed 
treating Forest Service land, was able to do that and got a 
more resilient landscape that crosses boundaries.
    These management practices that we employ are an example 
and need to be replicated across the landscape, not just on the 
reservation but off the reservation, not just small scale but 
large scale. I mentioned $21 per acre for a prescribed burn on 
the reservation to help protect our lands from fire.
    It is cost effective. It is beneficial. It is a no brainer, 
in my opinion. Active forest management is the main tool that 
can help prevent these large, devastating wildfires.
    Thank you.
    [The prepared statement of Mr. Brooks follows:]

  Prepared Statement of Jonathan Brooks, Tribal Forest Manager, White 
                         Mountain Apache Tribe
Introduction
    My name is Jonathan Brooks and I am the Tribal Forest Manager for 
the White Mountain Apache Tribe (WMAT). Today I will be providing 
testimony on behalf of the WMAT, our Tribal Chairman, and Tribal 
Council. I am here to highlight our long standing efforts to actively 
manage our forests and share our experiences that the benefits of 
active management have in helping to fight wildfires. I will also 
provide discussion about concerns and recommendations we have in moving 
forward in managing our Tribal forests.
    The WMAT in east-central Arizona has a 1.68 million acre homeland 
that is called the Fort Apache Indian Reservation (FAIR). The 
reservation is covered by 1.3 million acres of forest lands. We have 
755,051 acres of timbered forest (pine, spruce, fir species) and 
615,258 acres of woodland forest (pinyon/juniper species). These 
forests are managed by the WMAT and the Bureau of Indian Affairs (BIA) 
Fort Apache Agency for the benefit of our Apache people. The goals and 
objectives that guide our forest management are multi-faceted and 
provide a wide range of economic, cultural and ecological benefits for 
our land, our resources, and our people. These benefits include(but are 
not limited to) economic revenue through the sale of timber resources; 
jobs created for tribal members in all aspects of forestry, logging, 
and mill industries; sustainable and healthy forests that are more 
resilient to negative effects of natural processes (insect, disease, 
and fire); protection of cultural resources, sacred sites, and 
medicinal plants for the Apache people; habitat for all species of 
wildlife including popular game species as well as threatened and 
endangered species; abundant recreation opportunities for tribal 
members and non-tribal members alike; protection of our water resources 
which are a major issue with the passing of the Tribe's Water 
Quantification Settlement; as well as a healthy functioning forest 
ecosystem that is as aesthetically beautiful as any in the country. All 
of this is possible due to the active and responsible management of 
these forests between the WMAT and the BIA.
    Our forests have been actively managed through various forest 
management activities, predominantly sustainable timber harvests 
(logging), prescribed fire, pre-commercial thinning, and hazardous 
fuels reduction thinnings. Logging began early in the 1900's, and since 
that time, our management has evolved into what it is today. Our tribal 
leaders, our people, and our trust agents have embraced a history, a 
culture, and a need for forest management which has helped create a 
healthy and sustainable forest landscape that has adapted to the 
demands, needs, and objectives of the WMAT and the forest itself. The 
forests have always been a part of our culture and our heritage, 
providing food, water, medicine, and materials for survival; and now 
today that includes providing jobs and economic gains for the benefit 
of the Tribe and our people.
Management Background/Accomplishments
    The theme of today's hearing, ``Wildfires and Forest Management: 
Prevention is Preservation'', is a very important subject that has been 
a topic of discussion and debate among politicians, government agencies 
and the general public for many years, but it is a subject that the 
White Mountain Apache Tribe is well rehearsed to speak about. 
Preserving and protecting our forests is our duty, and that has only 
been accomplished through our legacy of active forest management. 
Actively managed southwest pinyon/juniper woodlands, ponderosa pine 
forests, and mixed conifer forests are forests that are far more 
resilient against the threat of today's devastating, catastrophic 
wildfires than unmanaged forests, which do not receive frequent 
thinning, logging, and/or prescribed burning. Devastating fires, which 
are far more commonplace now than anytime in recorded history, are able 
to occur because of a century of ``hands-off'' management and a century 
of fire suppression which removed fire as an integral part of these 
forest ecosystems. Natural fire helps keep the fuel loads of these 
forests from accumulating to what we see today. These ecosystems 
adapted with, and are dependent on, fire to maintain an ecological 
equilibrium that protects and preserves the forests in their healthiest 
and most sustainable form, a form which existed for centuries prior to 
European settlement. With the exclusion of fire for decades, and the 
controversy that has always surrounded fire, active management is 
needed to mimic the role of fire in our forests. Today I will highlight 
some of our recent and historic management accomplishments, and provide 
testimony on the benefits our management practices have on the impact 
of wildfires. I will also highlight some of our more recent and 
innovative management approaches that we have had to use, and also 
discuss shortcomings we are facing and what we need to be able to 
continue our legacy of sustainable forest management.
    The following tables and figures are a quick illustration that 
highlights the level of active management that the Tribe and the BIA 
have executed on the FAIR through various types of forest management 
activities. This is not an all-inclusive list, but is a snapshot of 
what I was able to gather in the short time I had to prepare this 
testimony. I will be happy to gather more exact information at your 
request.

     Table 1. Recent Accomplishments for Pre-Commerical Timber Stand
                          Improvement Thinnings
------------------------------------------------------------------------
                                                            BIA + WMAT
          FY's             BIA TSI Acres  WMAT TSI Acres       Acres
------------------------------------------------------------------------
1995-1999                           9193            2583
2000-2009                          13825            5574
2010-2013                           6639             254
Total Since 1995                   29657            8411           38068
------------------------------------------------------------------------


        Table 2. Fuels Management Thinning and Prescribed Burning
Accomplishments (data for all years was not immediately available). This
                     type of thinning began in 1998.
------------------------------------------------------------------------
                                                            BIA + WMAT
                 FY's                      BIA + WMAT    Prescribed Burn
                                         Thinning Acres       Acres
------------------------------------------------------------------------
1948-1949                                           n/a            2,980
1950-1959                                           n/a          164,906
1960-1969                                           n/a          210,285
1970-1979                                           n/a           88,226
1980-1989                                           n/a          244,941
1998-2013                                        75,000          225,000
Totals Since 1948                                75,000          936,338
------------------------------------------------------------------------


       Table 3. Logging History on Fort Apache Indian Reservation
------------------------------------------------------------------------
 Year that timber sales     Board Foot
        approved          Volume Removed
------------------------------------------------------------------------
1918                          490,380,590
1929                            2,212,170
1930-1939                     303,155,870
1940-1949                     594,745,925
1950-1959                     103,168,540
1960-1969                     613,500,561
1970-1979                     775,638,878
1980-1989                     636,134,701
1990-1999                     613,977,240
2002                           92,224,670  2002 Rodeo/Chediski Fire
                                            Salvage
2000-2009                     216,115,900
2010-2013                       7,000,000  Sawmill Closed in 2010,
                                            reopened 2014
------------------------------------------------------------------------
This table shows board foot volumes that were removed by decade. Each
  decade had logging in multiple timber sale units.

Forest Management Impacts On Fire Prevention/Suppression
    All of these accomplishments that I have shown amount to a forest 
that is healthier, more resilient and better protected from wildfires. 
The success of our fire management staff to effectively put out fire 
starts on our reservation is astonishing and can be attributed to our 
management. Our firefighting initial attack success rate on the 
reservation, which is measured by keeping fires at less than one acre, 
is consistently greater than 95 percent! The small percentage of fires 
that we are not able to keep at less than one acre, range from 2 to 
468,000 acres (Rodeo/Chediski fire, although only 276,000 acres of that 
were on the reservation).
    In order to capture the theme of today's hearing, I will highlight 
three fires on the reservation in which our active management proved 
extremely beneficial to help reduce the intensity and spread of these 
fires which helped preserve and protect forest resources. What I am 
providing here are brief summaries of what occurred in these fires and 
more detailed information is available on each of them.
Rodeo/Chediski Fire Response to Management Activities
    In 2002 our reservation experienced what was at the time the 
largest wildfire ever to happen in the state of Arizona, the Rodeo/
Chediski Fire. This was two human-caused fires that both started on the 
reservation and merged together to burn a total of 469,322 acres of 
tribal, federal, and private lands. Of this amount, 276,355 acres 
burned on the reservation. Despite the severely devastating nature of 
this fire, there were some valuable lessons learned within areas on the 
FAIR that had been actively managed in the decades prior by logging, 
thinning, and/or prescribed fire.
    In untreated forest stands with little to no management, there 
existed thick, heavy loadings of ground fuels, heavy brush, and dense 
stands of stressed small diameter trees, all of which created a ladder 
of fuels into the canopies of larger pine trees, creating a raging, 
devastating and intense inferno that left moonscapes in its wake and 
associated negative ecological consequences (soil sterilization, 
erosion, loss of forest ecosystems) . But, where this raging inferno 
came across areas that had received logging, thinning, or prescribed 
burning (especially in areas that had received more than one of these 
management activities), there did not exist the heavy ground fuels and 
underbrush, there were not thick stands of stressed small diameter 
trees, the larger trees were more well spaced, and all of this helped 
slow the inferno and it dissipated as it passed through these managed 
areas, leaving some black behind, but also leaving green, leaving life 
that provides all the benefits I mentioned on Page 1, 2nd paragraph of 
this testimony. These forests lived, and continue to live as 
functioning healthy ecosystems, a testament to the management that 
helped prevent more widespread devastation.
    Summary and findings of management activities on fire effects and 
forest stand structure;

  <bullet> Forest thinning and prescribed fire use were highly 
        effecting in reducing fire intensity.

  <bullet> Fire behavior was low intensity burns that consisted of 
        ground fire and under burning activity.

  <bullet> A combination of treatments (i.e. thinning and prescribed 
        fire) were most effecting in reducing fire behavior and 
        intensity.

  <bullet> There was low to moderate burn severity effects on soils, 
        whereas untreated areas had moderate to severe impacts on 
        soils.

  <bullet> Previously managed stands required little to no emergency 
        stabilization and rehabilitation treatments. (emergency 
        stabilization and rehabilitation treatments were extensive on 
        the rest of the fire, they have cost over 20 million dollars 
        and are ongoing still today).

  <bullet> Management treatments must be implemented at landscape 
        scales to effectively mitigate against large fires that occur 
        at the same scale.

Wallow Fire Response to Management Activities
    The Wallow Fire of 2011 became the largest wildfire ever in the 
history of the state of Arizona, and burned under forest and weather 
conditions that mirrored those of 2002 for the Rodeo/Chediski Fire. The 
Wallow Fire burned a total of 538,049 acres, of which, 12,959 acres 
burned on the FAIR. This fire started just off the eastern boundary of 
our reservation and despite winds that moved from west to east pushing 
the fire away from our lands, the fire progressed west against the wind 
toward our lands. As the fire grew and created its own weather (which 
these large intense fires always do), erratic winds and downdrafts 
combined with dry thunderstorms that were forming over the fire area, 
and the threat of fire consuming our prized eastern timberlands 
increased. This area of our reservation is full of values at risk that 
include culturally significant areas, sacred springs, threatened and 
endangered species, economically valuable timber lands, and our Sunrise 
Ski Resort, all of which are extremely valuable to the WMAT. The 
western edge of the fire could not be anchored, it could not be 
controlled, and it was not held in check until a large burnout 
operation was conducted on the actively managed forests of the FAIR.
    A BIA report was produced following the Wallow Fire that examined 
the beneficial effects of forest management on the FAIR and its impacts 
on the Wallow Fire. The report was released in December of 2011 and is 
titled ``Fuel Treatment Effectiveness on the Wallow Fire on the Fort 
Apache Indian Reservation''. A brief summary of the findings are:

  <bullet> Timber harvests, fuels management, forest thinning and 
        prescribed fire were highly effective in reducing fire 
        intensity by reducing heavy fuel loads.

  <bullet> Fire behavior from the Wallow Fire on the FAIR consisted of 
        low-intensity surface fire that predominantly burned the 
        understory fuels component.

  <bullet> Forest and Fuels management treatments provided fire 
        managers a successful option of a large burnout operation to 
        halt the westward movement of the fire on the reservation.

  <bullet> Fuel treatments allowed firefighters to implement their 
        suppression strategy safely and quickly enough to be effective.

  <bullet> Of the area burned on the FAIR, less than 7 percent of the 
        acreage experienced high tree mortality, and the remaining 93 
        percent experienced less than 10 percent tree mortality (very 
        low intensity burn). And

  <bullet> Fuel treatments ensured that the Wallow Fire's negative 
        effects on values at risk and resources were kept at minimal 
        levels.

    This report helps solidify the fact that managed forests which 
exercise various combinations of fuels management techniques are 
effective at mitigating negative consequences of wildfire.
Rock Creek Fire Response to Management Activities
    The Rock Creek Fire of 2013 was a 795 acre fire that occurred in a 
high use recreation area just beyond the city limits of our main tribal 
community. The fire exhibited active and sustained crown fire behavior 
which increased as it moved N and NE from its point of origin, being 
pushed by winds out of the southwest. The size of this fire does not 
appear significant at first, but the small size is exactly what makes 
this fire significant. As the fire moved to the NW, N and NE, and 
became an intensifying crown fire, it moved into a large area of 2 
prescribed burn projects that had been completed in 2012 and 2010. The 
2012 project was the first buffer against the fire and was fortified 
further to the NW, N and NE by the adjacent prescribed burn project 
that was conducted in 2010. The results were astonishing as the fire 
penetrated no more than 40 acres into the 2012 prescribed burn, and did 
not even burn into the 2010 project area! Fire behavior was almost 
immediately reduced due to the removal of excessive fuel loadings on 
the ground and ladder fuels that would have carried the fire through 
the canopy.
    A report was carried out following this fire which not only showed 
the remarked effectiveness of stopping the spread of the fire and 
protecting firefighter safety and abundant forest resources, but it 
also showed an extremely effective cost benefit analysis of carrying 
out fuels management projects versus the cost of fighting the fire. The 
following table illustrates a comparison between the firefighting 
efforts of the Rock Creek Fire versus the efforts needed to carry out 
the two prescribed burn projects.

    Rock Creek Fire Cost Benefit Analysis of Fuels Management vs Fire
                            Suppression Costs
------------------------------------------------------------------------
                        Fire Fighting     2012 Rx Burn     2010 Rx Burn
------------------------------------------------------------------------
Acres                              795             1303              600
# of Personnel                     491                8                8
Total Cost                  $2,043,290          $27,363          $12,600
Cost/Acre                       $2,570              $21              $21
------------------------------------------------------------------------

    Some key points to be taken from the above table are;

  <bullet> The per acre cost of conducting prescribed fire in this area 
        was more than 100 times cheaper than the cost of fighting the 
        fire!

  <bullet> For the cost of fighting this 795 acre fire, that same 2 
        million dollars could have treated 97,299 acres with prescribed 
        fire!

  <bullet> Conducting well executed prescribed burn projects takes 
        nearly 40 times fewer personnel than fighting a wildfire of 
        similar size, greatly reducing the level of threat to human 
        lives.

    All three of these fires(R/C Fire, Wallow Fire, and Rock Creek 
Fire), are examples of how active forest management can help protect 
and mitigate the effects of wildfires. The Rock Creek Fire, and its 
comparison of fuels management costs versus fire suppression costs is 
compelling. I would like to have shown this same analysis for the 
Rodeo/Chediski and Wallow Fires as well, but with short notice of this 
hearing I was not able to research all of the data to come up with this 
same comparison. However, it is safe to say that fighting the bigger, 
hotter, and more dangerous fires was more expensive per acre than 
conducting the prescribed burn and thinning activities that helped 
reduce the intensity and/or spread of those fires. If the Committee is 
interested in knowing this information, please let me know and I can 
research the matter further to come up with exact cost comparisons.
Newer/Innovative Forest Management Techniques and Practices
    Despite the extensive forest management that has occurred on the 
FAIR, we are facing new challenges that we have not faced before. 
Climate change, drought conditions, lack of management on adjacent land 
ownerships, larger fires, insect and disease outbreaks, and depressed 
housing markets which slowed and eventually stopped timber harvests for 
a few years, all have forced the WMAT to develop and consider different 
forest management strategies to protect against these challenges. This 
section will highlight a few projects that the WMAT has undertaken to 
address these challenges and further protect and manage our forest 
resources.
Hazardous Fuels Reduction/Wildand Urban Interface Fuels Management in 
        High Elevation Forests
    In 2012, the WMAT Tribal Forestry program began a Hazardous Fuels 
Reduction/Wildland Urban Interface project in and around our ski resort 
in our high elevation spruce/fir and mixed conifer forests. This type 
of thinning had never occurred in this forest type on the FAIR, but 
after the Wallow Fire scare of 2011 in which adjacent Forest Service 
lands of the same forest type were devastated, the Tribe became 
proactive in addressing the heavy fuels loads in and around the ski 
resort. These forest ecosystems exhibit steeper terrain and are less 
accessible for typical logging and thinning equipment and have 
different ecological processes, especially with fire. In these steeper, 
thicker, less accessible forest areas, the cost to effectively thin 
them increases to well over $1,000/acre. The fuel loadings are 
tremendous and pose many challenges to traditional thinning practices 
because the ground is littered with ``jackstraws'' of dead and down 
fallen trees. Despite these challenges something needed to be done 
because the ski resort is infrastructure, it is property, it is a large 
revenue source, and it is jobs and livelihoods for over 200 employees.
    This project has to occur in phases due to the heavy fuel loads of 
this forest type. The first phase is to remove all of the already down 
and dead trees that cover the ground surface. This has to be done so 
that thinning (phase 2) can occur. We cannot thin the standing forest 
until we remove all of the woody material on the ground so that logging 
equipment and tree fallers can safely and effectively maneuver 
themselves. At the time this project began, the sawmill was closed and 
could not take the vast amounts of raw material that was generated. 
Because the material we were dealing with was dead trees and in various 
stages of rot, we had to work with the sawmill management team to 
market and sell the wood for whatever product we could. The logs were 
hauled to the base of the ski resort and a sort yard was established, 
separating the logs from higher grade house logs to firewood to 
biomass. The work we did in 2012 only covered 75 acres but it removed 
2400 tons (120 logging truckloads) of dead and down material and 
generated over $60,000 dollars for the sawmill. The revenue was not a 
lot, but the fact that this project removed more than 30 tons/acre of 
heavy fuels from the forest is extremely significant as a fire 
protection measure. As a comparison, WUI thinning in our small diameter 
ponderosa pine stands that cut green trees yields 3-5 tons per acre! 
From a forestry perspective, this work we are doing in the high 
elevation forests is exactly the type of work that needs to be done, 
but not on 75 acres, not on 1000 acres (which is the current project 
boundary), but on over 200,000 acres which comprise this forest type. 
We have been able to work with our local agency to set aside funding 
for small portions of work for this year and next, but we need more 
stable federal appropriations so that we can help treat this forest 
type more effectively on a landscape scale. Without funds to treat this 
area, there is no effective way to remove the excessive and dangerous 
fuels loads that create an extreme fire hazard.
Tribal Forest Protection Act With the Apache/Sitgreaves National Forest
    The Tribal Forest Protection Act (TFPA) of 2004 is federal 
legislation that was passed in response to large devastating wildfires 
that caused many human casualties and destroyed entire reservations in 
California. These fires started on National Forest Service lands and 
then moved onto these reservations. The purpose of the TFPA is to 
provide a mechanism for Tribes to propose forest management projects on 
Forest Service lands to protect tribal resources.
    In 2009, the WMAT submitted a proposal to the Apache/Sitgreaves 
National Forest (ASNF), requesting that the ASNF thin their overgrown 
forest adjacent to the reservation, to protect our already thinned 
forest from fire, and insect and disease outbreaks that could move onto 
the reservation from the ASNF. The ASNF and Forest Service Regional 
office in Albuquerque, NM approved the project which was funded by 
American Recovery and Reinvestment Act (ARRA) dollars and became known 
as the Los Burros TFPA. In the project proposal, the WMAT also 
requested that our own WMAT Tribal Forestry crews conduct some of the 
thinning work and receive training/certification to become more 
proficient with timber cruising activities.
    Project implementation and success was facilitated by several key 
factors:

  <bullet> The WMAT Tribal Forestry and ASNF had a pre-existing working 
        relationship in which they collaborated successfully on several 
        prior projects.

  <bullet> The WMAT had already successfully treated more than 30,000 
        acres of their forest lands adjacent to the proposed project 
        area.

  <bullet> The ASNF had previously identified the Los Burros project 
        area as an area that needed fuels management treatment and had 
        conducted the necessary environmental (NEPA) reviews for the 
        project.

  <bullet> As a result of the Tribe's TFPA proposal, the ASNF re-
        prioritized the Los Burros project for implementation as part 
        of their White Mountain Stewardship Contract.

  <bullet> WMAT Tribal Forestry staff assisted with the project 
        development due to strained Forest Service staffing who were 
        busy with other projects.

    Overall, the project was successful in every aspect and should be 
used as an example of how inter-agency management can be done to 
protect both reservation and National Forest lands. The project 
accomplishments include:

  <bullet> Training for 3-5 WMAT Forestry crew members in the areas of 
        timber cruising and Forest Service standards for project 
        preparation activities.

  <bullet> Using this training, these WMAT employees helped ``prep'' 
        5,800 acres for the ASNF on various areas within the White 
        Mountain Stewardship Project (including the Los Burros TFPA 
        project area).

  <bullet> A crew of 6-13 WMAT Forestry employees thinned 1,580 acres 
        on the Los Burros TFPA project.

Biomass Removal and Utilization
    Much of our current fuels management thinning activities focus on 
WUI areas with overstocked forest stands comprised of stressed, small 
diameter trees which are not valuable from a traditional lumber 
standpoint. This material is referred to as ``biomass''. When our 
sawmill (Fort Apache Timber Company, or FATCO) was shut down, our WMAT 
Tribal Forestry department worked with the BIA and FATCO to use 
existing fuels management dollars to generate a wood products 
utilization program which thinned over 4,000 acres of WUI areas and 
generated over $300,000 in revenue for the Tribe from the sale of 
biomass material to the nearby pellet plant off reservation. Prior to 
this, our Tribal Forestry Fuels program was not allowed to use federal 
dollars to get rid of the material, and so for many years the wood was 
piled and burned out in the woods, or even worse was just left out in 
the woods to rot, ineffectively leaving the fuel in the woods and not 
reducing the fire hazard completely. But with a lot of effort through 
my department and by the Tribe, we were able to negotiate and get 
permission from the national fuels management program within the BIA, 
to use some fuels management dollars to process the biomass into chips 
and haul the material to the pellet plant. This is a little more costly 
per acre, but extremely beneficial in creating healthy and fire 
resilient landscapes which is the ultimate goal of the fuels management 
program. It also helped generate revenue which helped to re-open the 
sawmill after being closed for several years (this was just a small 
portion of the money needed to re-open the sawmill but it helped with 
feasibility studies, consulting work, and repairs and maintenance). 
However, this utilization program was only conducted over a 2 year 
period (2010-2012) and the Tribe and Ft. Apache Agency received fewer 
fuels management dollars due to federal budget cuts, which for the time 
being has halted this beneficial program.
Restraints on WMAT/FAIR Forest Management
    1.)Federal Appropriations--Unfortunately, WMAT and other Indian 
Tribes fall victim to less adequate funding through the BIA than our 
counterparts in the U.S. Forest Service. On a per acre basis, the BIA 
and Tribal funding is on average, one third the amount that the Forest 
Service receives for the same work. The result is, we have to be more 
innovative and extremely stringent in how we utilize our dollars, and 
the one glaring result is we pay our staffs and contractors less than 
what the work garners elsewhere. It is something that needs to be 
remedied, especially given the fact that the WMAT and other tribes are 
far more effective in managing our forests than the Forest Service.

    2.)Restrictions on how Fuels Management Dollars can be spent:

         a.) Areas prioritized for thinning are confined to WUI areas--
        Our Tribe has been very effective since the year 2000 at 
        prioritizing and thinning around local communities and 
        infrastructure (WUI). This has been a very successful endeavor, 
        but in order to fully protect these communities and values at 
        risk, thinning treatments need to move further away from the 
        WUI zones and deeper into the forests. Large fires like Rodeo/
        Chediski Fire and Wallow Fire demonstrated that forest 
        management is much more effective at reducing negative fire 
        effects when treatments are conducted on a broader landscape 
        and not just confined to smaller patches of land.

         b.) Funds are not readily available to be spent on biomass 
        utilization--Fuels management programs and thinning projects on 
        our reservation (and other Tribal lands) are not as heavily 
        subsidized as projects on U.S. Forest Service lands which allow 
        for biomass utilization to be included in the treatment costs. 
        Projects such as the White Mountain Stewardship contract on the 
        Apache/Sitgreaves National Forest provided funds not only for 
        the thinning to be done in the forest, but were funded to allow 
        wood utilization industry (pellet plant) to be constructed as a 
        destination for the material to go. Although WMAT does not have 
        a biomass facility on the reservation to utilize the material, 
        the pellet plant located just off the reservation is a viable 
        destination where we can sell our biomass material. Our 
        projects need to be funded so that we can do more biomass 
        removal like what we did in 2010-2012, and/or establish our own 
        biomass facility on the reservation.

    3.)Fire Suppression Costs vs Management Costs--The example I used 
earlier of the Rock Creek fire shows that the cost of fighting fire is 
far more costly than conducting prescribed burn activities in these 
same forests. Unfortunately, these dollars which are used to fight fire 
are not spent more effectively by actively managing forests. The Rock 
Creek Fire example compared fire suppression to prescribed fire, and 
did not include mechanical or crew thinning costs. Our WMAT Tribal 
Forestry costs to conduct thinning in this same forest types averages 
from $150-$300/acre, which is still 10-20 times cheaper than the $2570/
acre cost of fighting the fire. Somewhere in the federal budgeting 
process, the cost benefit analysis of fighting fire versus managing 
fire through active fuels management practices needs to be more 
seriously considered. The effectiveness of our Tribe and local BIA 
office at actively managing and protecting our forests through 
efficient and cost saving practices should not only be heeded, but 
replicated more on our own lands and elsewhere across our Nation's 
forests.

    4.)Reliable Lumber/Housing/Wood Products Markets--The continued 
success of our commercial logging and timber harvest activity is 
centered on reliable lumber and housing markets. These markets are 
directly affected by the growth and stability of our national economy. 
In recent years, these markets hit an all-time low and the cost of 
logging and manufacturing wood products was more than the revenue 
generated from selling these wood products and the WMAT was forced to 
close our sawmill. The closure of the sawmill results in a loss of 
potential annual sales of 10 million dollars of manufactured wood 
products, and the loss of over 200 associated jobs in the sawmill and 
out in the woods. Recently, the WMAT was able to secure financing to 
re-open our sawmill and we began logging again in November 2013. 
However, if future markets for commercial timber products are not 
beneficial to support the logging and sawmill industry, then 
appropriations for BIA timber sale activities (through fiduciary trust 
responsibilities) should be re-appropriated into the fuels management 
program for our Tribe so that we can continue to manage timber sale 
areas.
Summary/Conclusion
  <bullet> The work that has been done by the White Mountain Apache 
        Tribe and the Fort Apache Agency can, and should be used as a 
        model that demonstrates how active forest management preserves 
        the forest and creates a healthy and sustainable environment 
        which is more resilient to devastating wildfires.

  <bullet> The work that we have done is nothing compared to what we 
        need to do. It is a small portion of what needs to be done to 
        protect our land, our people, and our resources, and also those 
        of our neighbors adjacent to us.

  <bullet> Federal appropriations need to be proactive and focus on 
        active fuels and forest management activities that prevent 
        wildfires, instead of being reactive to fire suppression which 
        is far more costly and dangerous and results in millions of 
        dollars of rehabilitation work as well.

  <bullet> Active forest management on our reservation and other 
        forested lands cannot occur in just a certain forest type, it 
        can't focus only on WUI areas, but rather it needs to occur 
        forest wide, in all forest types, away from communities, across 
        the entire landscape and across jurisdictional boundaries.

  <bullet> With our active forest management, we are protecting our 
        home, our way of life, and our culture. We as indigenous 
        people, who have depended on these forests and their resources 
        since time immemorial, are not only managing and protecting 
        them for ourselves in the present, but we are managing for 
        sustainability and to protect them for our future generations 
        who will need to depend on the forest as much as we do, and who 
        will need to protect it for their future generations as well.

    On behalf of our Tribal Chairman, Ronnie Lupe, and the entire WMAT 
Tribal Council, I thank you for the honor and privilege of being able 
to testify on this hearing and provide insight into our storied forest 
management. Thank you.

    The Chairman. Thank you for your testimony, Jonathan.
    Adrian?

 STATEMENT OF ADRIAN LEIGHTON, Ph.D., CHAIR, NATURAL RESOURCES 
              DEPARTMENT, SALISH KOOTENAI COLLEGE

    Dr. Leighton. Thank you, Mr. Chairman, Senator McCain and 
members of the Committee.
    Thank you for this opportunity to testify.
    I am one of the ten independent forestry professionals 
assembled to form the Third Indian Forest Management Assessment 
Team. I also teach forestry at Salish Kootenai College. I will 
do my best to do this without PowerPoint or dry erase markers.
    Forest management performed by tribes and the BIA is a 
remarkable, innovative blend of placed based wisdom and active 
management that has the potential to be a national model. 
However, lack of stable, equitable funding, an understaffed and 
aging work force and inadequate access to technical resources 
comprises long term sustainability.
    Twenty-three years after the first IFMAT assessment, tribes 
are constrained by conflicting rules and regulations that 
hinder rather than help them achieve self governance. Tribal 
forests are increasingly threatened by inaction on the borders 
of their lands. Here are some of the challenges we see.
    Insufficient funding, in 2011, BIA and tribal forestry 
programs received on a per acre basis one-third of the funding 
allocated for Forest Service management. This funding has been 
consistent across all three IFMATs. That figure is fairly 
stable.
    Staffing levels are well below State, private and Federal 
comparators. Funding reductions over the last 20 years has 
further compounded this problem. Mr. Rigdon's example at Yakama 
of over half the BIA forestry positions being vacant is just 
one of many examples.
    We have an aging workforce with an uncertain supply of 
future foresters. While the number of Native foresters in the 
BIA and working for tribes has doubled in the last 20 years to 
about 50 percent of the total, there is still only 
approximately 100 Native American students in four year 
forestry programs nationwide. That includes the 40 at Salish 
Kootenai College, the only tribal college with a Bachelor's 
degree in forestry. Meanwhile, the average age of BIA and 
tribal foresters is 51 and less than 2 percent of the 
professional workforce is under the age of 30.
    There is a diminishing infrastructure. Timber harvest 
levels and revenues have steadily dropped since IFMAT I and 
since 2001, ten tribal sawmills have closed, leaving four 
operational and two trying to reopen, while total employment 
associated with management, harvest and processing of tribal 
timber has dropped by 10,000 jobs, 38 percent.
    To aid in understanding of these challenges and 
opportunities, IFMAT has introduced the concept of FIT: fire, 
investment and transformation. These things embody the progress 
that has been made over the last two decades as well as the 
issues that lie ahead for tribal forests and the people, Native 
and non-Native, who depend on them.
    Fire and related threats, such as insects, disease and 
climate change, pose serious risks to tribal lands, resources 
and communities as you have heard from other testimony today. 
We found many examples of healthy and productive forests and 
successful treatment such as Mr. Brooks pointed out. Such 
effective treatments offer hope but are not enough to match the 
growing magnitude of the problem.
    We estimate that if tribes to restore ecosystems and reduce 
fuel accumulations, then the amount of acreage treated each 
year much increase by five to ten fold. Stable and reliable 
funding is crucial to this task. Strategic investment is needed 
to achieve tribal vision and plans and to fulfill the 
government's trust responsibility.
    We find that tribal forests require a minimum annual 
appropriation of $254 million to bring per acre funding up to 
par with comparators. This is $100 million over the current 
funding level. Also, an additional 792 professional and 
technical staff are needed to adequately support tribal 
forestry programs. This is about a 60 percent increase.
    Transformation, tribal knowledge and stewardship 
capabilities are now uniquely positioned to help sustain 
forests beyond reservation boundaries. The Tribal Forest 
Protection Act is an under utilized opportunity to be 
aggressively expanded as tribes have nearly 3,000 miles of 
common boundary with at risk national forests and range lands.
    To add to the list of endorsements for the Anchor Forest 
concept, the IFMAT team fully supports the expansion of this 
pilot project. As a tribal member told us in a focus group 
interview, if we are not maintaining our forests, then that is 
a reflection of how we are living our lives.
    This level of dedicated commitment to integrated management 
was a common theme observed by the IFMAT team and I think one 
you have heard expressed very well today. However, we are 
concerned that such high caliber management cannot be 
sustained. Chronic under funding is limiting the ability to 
maximize the forest economic and ecological potential.
    If support for tribal and BIA forestry programs is 
increased to recommended and equitable levels, and fulfillment 
of trust responsibility assured, tribal forests will continue 
to grow into their role as a model of sustainable management 
for Federal and private forests alike.
    Thank you for this opportunity.
    [The prepared statement of Dr. Leighton follows:]

Prepared Statement of Adrian Leighton, Ph.D., Chair, Natural Resources 
                  Department, Salish Kootenai College
    Mr. Chairman, Members of the Committee, my name is Dr. Adrian 
Leighton, Natural Resources Department Head at Salish Kootenai College. 
I am also one of ten independent forestry experts assembled to form the 
Third Indian Forest Management Assessment Team (IFMAT III). During the 
course of our two-year investigation we visited numerous Indian 
reservations, tribal colleges, Bureau of Indian Affairs (BIA) offices, 
and other federal agencies. Pertinent government reports, manuals, 
historical literature, and journal publications were reviewed. Cultural 
and workforce surveys were conducted, focus groups with tribal members 
were held and Indian forestry symposia attended. In 2013, the IFMAT III 
assignment was completed and our final reports were submitted for 
publication. The Committee has been provided copies of IFMAT documents. 
IFMAT III web-published materials (Executive Summary, Volume I, and 
Volume II) are also available for download at: http://www.itcnet.org/
issues_projects/issues_2/forest_management/assessment.html
    Thank you for this opportunity to testify before your Committee. I 
will begin by summarizing IFMAT III's principal finding and its main 
recommendations.
IFMAT III Summary
    Forest management performed by tribes and the BIA is a remarkable, 
innovative blend of placed based wisdom and active management that has 
the potential to be a model for ecosystem management nationwide. 
However lack of stable, equitable funding, an understaffed and aging 
workforce and inadequate access to technical resources compromises the 
long term sustainability.
    To be sustainable, Indian forestry programs must:

        1.) be assured of predictable, consistent, and adequate 
        funding;
        2.) have access to up-to-date technical and research support;
        3.) be guided by each tribe's vision for its forests; and
        4.) have a capable workforce committed to protecting tribal 
        resources.

    Twenty-three years after the first IFMAT assessment, 
notwithstanding the record of tribes improving management of their 
forests, Indian forests remain underfunded and understaffed, tribes are 
constrained by conflicting rules and regulations that hinder rather 
than help them achieve self-governance, and tribal forests are 
increasingly threatened by inaction on the borders of their lands. The 
result is a decades-old tale of missed opportunity for economic and 
environmental benefits.
IFMAT Backround
    During the development of the National Indian Forest Resources 
Management Act in 1991 (NIFRMA, PL 101-630, Title III), Congress 
acknowledged that the United States has a trust responsibility toward 
Indian forest lands and that federal investment in Indian forest 
management was significantly below levels for comparable public or 
private forestry programs.
    NIFRMA mandated that independent assessments of Indian forests and 
forestry programs be conducted every ten years. Three have been 
completed (1993, 2003, 2013).As with preceding reports, the Secretary 
of the Interior contracted with the Intertribal Timber Council (ITC), a 
national organization of forest-managing Indian tribes, to select IFMAT 
members and provide administrative support for completion of this 
report. The findings and recommendations in the IFMAT report represent 
an independent evaluation of members with a broad range of expertise 
and knowledge was brought to the task, including silviculture, wildlife 
management, engineering, wildland fire, education, economics, and 
climate change. The three reports are national in scope and provide 
periodic evaluation focused on eight topics of inquiry:

        1. Management practices and funding levels for Indian forest 
        land compared with federal and private forest lands,

        2. The health and productivity of Indian forest lands,

        3. Staffing patterns of BIA and tribal forestry organizations,

        4. Timber sale administration procedures, including 
        accountability for proceeds,

        5. The potential for reducing BIA rules and regulations 
        consistent with federal trust responsibility,

        6. The adequacy of Indian forest land management plans, 
        including their ability to meet tribal needs and priorities,

        7. The feasibility of establishing minimum standards for 
        measuring the adequacy of BIA forestry programs in fulfilling 
        trust responsibility, and

        8. Recommendations for needed reforms and increased funding 
        levels.

    At the request of ITC, the assessment was expanded to include the 
following three questions regarding contemporary issues of special 
interest to forest-managing Indian tribes:

        1. Issues relating to workforce education, recruitment and 
        retention with special attention to recruiting more Indian 
        professionals in natural resource management.

        2. Quantification of economic, social, and ecological benefits 
        provided by Indian forests to tribal and regional communities.

        3. Consideration of changes to enhance collaboration in forest 
        management, harvesting, and transportation infrastructure in 
        the vicinity of reservations and the potential for Indian 
        forests to become ``anchors'' of forest infrastructure.

    Other topics that currently affect Indian forests include trust 
responsibility, federal budget reductions, policies related to 
fractionated ownership, widespread loss of timber harvesting and 
processing infrastructure, and the Tribal Forest Protection Act. 
Immediate threats to the sustainability of forests across all 
ownerships, such as forest fire hazard, insect and disease infestation, 
invasive species, trespass, climate change, endangered species, and 
market declines, also warrant consideration.
Tribal Forests
    Spread across 334 Indian reservations on more than18 million acres, 
tribal forests cover about one-third of all Indian trust lands and 
serve as the economic and cultural backbone for many Indian 
reservations. More than one million acres of tribal forests have been 
set aside from harvest by tribal governments as cultural and ecosystem 
reserves.The standing inventory of commercial timber in Indian Country 
is 43 billion board feet. There is perhaps no other single natural 
resource as varied or as important to tribal governments and their 
members. Forests store and filter the water and purify the air. They 
sustain habitats for the fish and wildlife that provide sustenance for 
the people. They produce foods, medicines, fuel, and materials for 
shelter, transportation, and artistic expression. Forests generate 
revenues for many tribal governments and sorely needed employment for 
Indian people and rural communities. Forests provide a sense of place 
that sustains tribal lifeways, cultures, religions, and spiritual 
practices. Since the first IFMAT report in 1991, through dedicated 
programs of consolidation and reacquisition, tribes have been able to 
gradually increase their cumulative forest holdings by more than 2.8 
million acres.
IFMAT III Principal Finding
    In spite of formidable obstacles, such as chronic underfunding and 
understaffing, tribal forestry programs are remarkably successful. 
Progress continues in innovative silviculture, adaptive integration of 
forest management for a range of values, and in the presence of quality 
staff. However, if these positive attributes are to be retained and 
strengthened, tribal and the BIA forestry programs will need to secure 
stable and adequate funding mechanisms.
Insufficient Funding
    In 2011, Indian forests received less management funding per acre 
than adjacent public and private forest owners (as example, tribes 
received only 33 percent of Forest Service funding). See Attachment 1. 
Recurring program funding has been declining in real terms (23 percent 
decline since 1991) and tribes are not receiving additional funds as 
their land base (17 percent increase since 1991) and obligations (such 
as climate change adaptation and forest health restoration) increase. 
Funding for hazardous fuel management on Indian forests (2011 per acre 
basis) is equivalent to just 49 percent of Forest Service allocations. 
Only 16 percent of tribal roads are functioning at acceptable or better 
levels. Remote locations and inadequate protection (BIA Forestry 
receives no funding for law enforcement) leave tribes vulnerable to 
timber theft and trespass (illegal marijuana ``grows'' are an 
especially troubling example) that bring violence and pollution to 
remote locations on many reservations
Insufficient Staffing
    Staffing shortfalls for Indian forestry programs are worsening (13 
percent staff decline since 1991; 51 percent of foresters are 50 years 
old or older). An example of this is at Yakama where 33 of 55 forestry 
positions are currently vacant due to lack of funding. See Attachment 
2. Wages and benefits for tribal forestry positions are 15-30 percent 
lower than for comparable federal jobs. Yet there are no systematic BIA 
programs for employee recruitment and retention such as exist for other 
federal agencies. BIA Forestry lacks in-house scientific and technical 
support sufficient for inventory updates, topical research and 
reporting, and long-range planning.
An Aging Workforce With Uncertain Supply of Future Foresters
    The average age of BIA/Tribal foresters is 51, several years older 
than that of comparable resource management agencies. In some regions, 
over half of the BIA foresters are eligible to retire in the next 5 
years. While the number of Native foresters has more than doubled in 
the last 20 years (from 22 percent in 1992 to 48 percent in 2013) there 
are still only approximately 100 Native American students enrolled in 
forestry programs nationwide (with about 40 percent of them located at 
a single tribal college: Salish Kootenai College). The BIA funded 
National Center for Cooperative Education (NCCE) has supported dozens 
of tribal and BIA foresters through school and provided internships, 
but this program alone is not enough. A BIA/Tribal partnership to 
strategically plan workforce recruitment, retention and training is 
needed that will also work with tribal and non-tribal colleges and all 
universities to ensure that the future generation of Native foresters 
is present and properly trained to deal with the management challenges 
of the coming decades. The creation of a four year forestry program at 
a single tribal college has resulted in a greater than 50 percent 
increase in the number of Native forestry students. What more could be 
done with a coordinated, strategic approach? As the title of this 
hearing suggests, ``prevention is preservation'', and one way to 
prevent future challenges is through preparation. The better we prepare 
the next generation of managers now, the more likely that they will 
have the tools they need to preserve tribal lands and the values 
associated with them.
Diminishing Infrastructure
    Timber harvest levels (down 51 percent) and timber revenues (down 
64 percent) have steadily dropped since IFMAT I. Since 2001, ten tribal 
sawmills have closed, leaving justsix surviving, while total employment 
associated with management, harvest, transport and processing of Indian 
timber has dropped by 10,000 jobs or 38 percent. Experiences throughout 
the rural West have shown us that once harvesting and processing 
infrastructure is lost, it is very difficult to replace. The consequent 
loss of infrastructure exacerbates problems of unemployment, social 
welfare, public health and safety while reducing tribal stewardship 
flexibilities.
Undermanaged Woodlands
    Woodlands encompass the largest area of Indian forest ecosystems. 
In total, 202 tribes have woodlands. For 109 of these tribes, woodlands 
are their only forests. Water, firewood, wildlife, foods and medicines 
are important resources derived from woodlands. But, with little 
commercial value, woodlands receive insufficient funding and attention 
from the BIA for proper stewardship. Tribal elders are already noticing 
climate change impacts to woodlands such as juniper encroachments and 
lowered water tables but scarce funding seriously limits tribal options 
for management.
Economically Vital, Innovatively Managed
    However, although tribal timber activities have slowed considerably 
in recent years, Indian forests remain a source of significant 
employment (19,000 full- and part-time jobs). Timber harvests extend 
high job and revenue leverage, in part because of the labor-intensive 
nature of some Indian forestry practices, such as uneven-aged 
management. New opportunities for forest enterprises may also be 
emerging. The sensitive harvest of non-timber forest products for 
health, herbal, and cosmetic products holds promise and may align well 
with sustainable forestry.

    IFMAT III Framework: FIT (fire, investment, and transformation)

    Underfunded and understaffed yet applauded for successes, Indian 
forest programs appear as an enigma. To aid understanding, IFMAT 
introduced the concept of FIT (fire, investment, and transformation). 
These themes embody the progress that Indian forestry has made over the 
last two decades, as well as the opportunities and challenges that lie 
ahead. Indian forestry is at a tipping point. Choices for moving 
forward will have profound and lasting consequences for Indian people 
and forests.
Fire
    Fire represents threats to forest health such as wildfire, insects, 
disease, and climate change. These threats pose serious and increasing 
risks jeopardizing the economic, cultural, and ecological 
sustainability of Indian forests and tribal communities. Despite rising 
costs of wild fire suppression across the nation, and the National Fire 
Plan (2000) that led to major increases in federal agency funding for 
preparedness and fuel treatments, there has been an increase in the 
acreage of forests and woodlands consumed by wildfire each year. In 
proactive response, tribes are drawing upon traditional knowledge to 
restore the cultural role of fire to the landscape but funding 
shortfalls slow progress.
    We found many examples of healthy and productive Indian forests as 
a result of sound forest management practices such as innovative 
uneven-aged forest management including prescribed fire, thinning 
regimes, and increasing use of integrated multiple resource management.
    Such effective treatments offer hope, but are not enough to match 
the growing magnitude of the challenges facing Indian forests. This is 
especially the case in the dry interior West where much of Indian 
forest acreage is located adjacent to untended federal forests at risk 
from uncharacteristically severe wildfires, drought, insects, and 
disease that pose significant hazards to tribal communities. We 
estimate, that if fire is realistically to be used as tool to restore 
ecosystems and reduce landscape-level fuel accumulations, then the 
amount of acres treated each year must increase by five to ten times.
Investment
    Strategic Investment is needed to achieve tribal forest visions and 
plans, and to fulfill the U.S. government trust responsibility for 
Indian forests.When investments in tribal forests support stewardship 
and recoverable products can be sold, caring for the forest can bring 
net return instead of reactive cost. But when investments are 
insufficient the productivity of forest lands is compromised. For 
example, there are currently about 750,000 acres (about 4 percent of 
Indian forests) that need planting or thinning if future yields are to 
be realized.
    IFMAT found that Indian forests require a minimum annual 
appropriation of $254 million to bring per acre funding on a par with 
appropriate comparators. \1\ Current annual funding of $154 million is 
$100 million below comparable public and private programs.
---------------------------------------------------------------------------
    \1\ Forest Service for stewardship and wildfire for commercial 
timberlands; BLM for stewardship and wildfire on non-commercial forest 
lands; state and industrial forests for timber production.
---------------------------------------------------------------------------
    This base funding does not include support for substantive tribal 
involvement in the Department of the Interior's (DOI) Landscape 
Conservation Cooperatives or other collaborative initiatives. Tribes 
need equitable access to funds and services related to climate change 
planning, adaptation, and response. In 2012, the BIA received just one-
tenth of one percent of the total climate change funding allocated to 
DOI despite the fact that DOI has a unique trust obligation for tribal 
lands which account for 10 percent of the DOI land base and host the 
largest residential population of any DOI agencies. BIA and tribal 
staffing is inadequate in number and expertise to provide the quality 
and quantity of services needed to care for Indian forests. The 
involvement of Native American professionals has increased, but 
retirements, insufficient recruitment and retention, employment 
transfers for higher wages, and limited professional training 
opportunities are resulting in the erosion of workforce skills, 
leadership, and institutional knowledge within BIA and tribal forestry 
programs. Due to the lack of stable and adequate funding, Indian forest 
programs have become increasingly reliant upon non-recurring grants 
from other agencies and NGOs that come with high transaction costs, 
hit-and-miss alignment with tribal priorities, and uncertain funding 
futures.
    Review of the 2011 Funding and Position Analysis indicates that an 
additional 792 professional and technical staff (a 65%increase above 
current levels) are needed to adequately support Indian forestry 
programs. In addition, IFMAT recommends that a BIA national education 
coordinator be recruited to pursue and oversee forestry education and 
training programs as envisioned by NIFRMA.
Transformation
    An auspicious Transformation may be underway in Indian forest 
management and should be continued. BIA-dominated policies and programs 
of the past are being replaced by tribal visions and leadership. In the 
last twenty years, the number of contract and compact tribes that have 
taken control of their own forest management programs has doubled. 
Management priorities are shifting more towards forest protection, with 
commodity production receiving less emphasis. Tribal members define 
protection as the sustainable provision of all benefits derived from 
the forest, including but not limited to harvesting and revenue-
generating activities but beginning with the assurance that forests are 
kept as forest land in perpetuity. IFMAT III found that forest 
management plans now exist for most tribal forest lands. In 1991, 5.8 
million acres were covered by a forest plan, whereas, in 2011, 15.5 
million acres of tribal forests had forest plans. We recommend that 
management plans could serve tribes in new ways: as a vehicle for 
funding and staffing negotiations, as a planning agreement that sets 
forth the Trustee's obligations to tribal beneficiaries, as a 
conservation strategy toreduce the regulatory burdens of the National 
Environmental Policy Act, and as adaptive approach to mitigate climate 
change impacts.
    In policy and action, there appears a growing acceptance of an 
Indian worldview that ``all things are connected,'' accompanied by 
recognition that environmental challenges cannot be contained within 
political boundaries. Tribal knowledge and stewardship capabilities are 
now uniquely positioned to help sustain forests beyond reservation 
boundaries. In particular, we encountered numerous instances where 
tribal approaches to sustainable forestry and resource stewardship 
could find beneficial application on the neglected federal forest 
estate.
    For example, the Tribal Forest Protection Act of 2004 (TFPA) was 
passed to protect tribal assets by allowing tribes to contract with the 
federal agencies to carry out hazardous fuel and forest health 
silvicultural treatments on adjacent at-risk federal lands. TFPA 
represents an underutilized opportunity to work with state and federal 
agencies to increase jobs and economic stability in tribal communities, 
protect tribal resources and treaty rights on and off the reservation, 
and implement needed hazardous fuels reductions that otherwise might 
not be accomplished. TFPA partnerships should be aggressively expanded, 
as tribes share nearly 3000 miles of common boundary with 80 million 
acres of at-risk national forests and rangelands.
    An initiative of the Intertribal Timber Council, the ``Anchor 
Forest'' concept centers on the idea of tribal forest managers 
collaborating with neighboring ownerships to collectively ensure a 
long-term flow of harvested timber sufficient to sustain wood 
processing facilities and maintain healthy forests. A key aspect of 
this collaboration is a shared recognition that forest management must 
be both ecologically sustainable and economically viable. The third 
component (with economic viability and ecological sustainability) of 
this ``triple bottom line'' is social sustainability. The jobs provided 
directly and indirectly by the timber flow under the Anchor Forests 
concept will provide stable employment to tribal and non-tribal 
residents and do much to reduce poverty, thus greatly strengthening the 
social fabric of rural communities.
    Indian forestry programs can become models of sustainable forest 
management for federal and private forests alike. However, without 
increased federal resolve and investment, historic obligations will 
remain unfulfilled and opportunities on and off the reservation will be 
lost.
Trust Responsibility
    Federal statutes, court decisions and treaties establish the trust 
responsibility of the federal government to Native American tribes. 
This responsibility extends beyond BIA to all agencies of the federal 
government. Treaties further establish tribes as sovereign nations and 
grant tribes rights to hunt, fish, and gather natural resources on 
lands ceded to the federal government. Ceded lands include both public 
and private ownerships. Meeting the trust responsibility and satisfying 
treaty rights requires environmental conditions both on and off 
reservations such that lands and waters are biologically diverse, 
productive, resilient to both natural and human-caused disturbance, and 
capable of sustainably yielding desired resources and settings.
    The preamble to NIFRMA [Title III SEC 302] explicitly recognized 
the US trust responsibility for sustained management of Indian forests 
and identified a number of concerns with the government ability to 
fulfill those obligations. Two decades later, IFMAT III finds that the 
federal government continues to inadequately fulfill its trust 
obligations to Indian forestry. Real funding and staffing levels are 
lower now than at the time of IFMAT I. We remain concerned that funding 
and staffing levels continue to be insufficient to support state-of-
the-art forest management, that sufficient separation of oversight from 
operational responsibilities has not been put into effect, that 
administrative processes for Indian forestry are increasingly costly to 
complete, and that trespass remains a serious problem. In addition, 
there continues to be an inadequate response to the mandate of NIFRMA 
that the federal government work with the tribes to provide for 
multiple use management consistent with tribal values and needs such as 
subsistence and ceremonial uses, fisheries, wildlife, recreation, 
aesthetic and other traditional values.
After 20 Years, Still Both ``Pitcher and Umpire''
    A conflict of interest is created by the dual obligations of the 
Bureau of Indian Affairs to both deliver Indian services and to assess 
whether those services are adequate and well-executed. Prior IFMAT 
reports characterized this situation as the BIA attempting to perform 
as both ``pitcher and umpire''.
    The organizational diagram, as presented in Attachment 3, was first 
proposed by IFMAT I, two decades ago, as a framework to restructure 
trust oversight. An independent commission would periodically review 
performance of services against tribal plans, accepted by the Secretary 
of the Interior, and would have the power to require corrections. The 
commission would be national-level, but with local reach. An example of 
such a model is the Nuclear Regulatory Commission. The trust oversight 
commission could contract with regional entities to be primary 
providers of oversight duties, subject to commission review. Any trust 
oversight body must have the technical capacity and skill to assess 
forest management issues.
    Fulfillment of the federal trust duty depends upon standards 
against which performance can be evaluated. Standards must have 
adequate oversight for their execution, and must be enforced. An 
effective mechanism for enforcing standards does not currently exist, 
and the third party oversight as recommended by past IFMAT reports has 
not been implemented.
IFMAT III Key Recommendations

    The IFMAT III report contains a total of 68 recommendations, 
including the 10 below considered to be key.

        1. The trust oversight recommendations of previous IFMATs 
        should be further developed and implemented. An independent 
        commission should be formed to periodically review performance 
        of services against tribal plans.When third party oversight is 
        augmented by signed agreements between tribes and the DOI, the 
        role of BIA can evolve out of the umpire/pitcher impasse toward 
        that of technical service provider and facilitator of 
        communication between Indian tribes and the federal government.

        2. Increase Indian forestry funding by a minimum of $112.7 
        million per year. Increase annual base level funding by $100 
        million to $254 million-the amount we estimate necessary for a 
        level of forest stewardship and timber production that would be 
        consistent with Indian goals and comparable to funding provided 
        to National Forests. Appropriate an additional $12.7 million to 
        support education and professional training programs as 
        envisioned by NIFRMA.

        3. Increase staffing by 792 professional and technical forestry 
        positions. An education coordinator will also be needed. 
        Staffing replacement procedures need to be reviewed so that 
        funded positions can be filled promptly according to an 
        established recruitment and retention strategic plan. Adequate 
        compensation and relocation programs must be available.

        4. The Anchor Forest concept should be supported and expanded. 
        Innovative tribal management techniques should be considered 
        for appropriate portions of the federal forest estate. We 
        hypothesize that collaborative agreements such as Anchor 
        Forests, TFPA, and stewardship contracting will result in 
        valuable market and ecosystem benefits that more than 
        compensate for investment.

        5. The implications of organizational and personnel changes 
        within the BIA and the federal establishment should be examined 
        for their immediate and potential effects on trust 
        responsibility and the sustainability of Indian forests.

        6. Self-governance tribes should be able to develop tribal NEPA 
        procedures and to replace BIA NEPA manuals and handbooks. This 
        approach furthers self-determination and self-governance and 
        would reward tribes for progress in integrated planning.

        7. A specific list of unfunded mandates should be drawn up and 
        recommendations for their alleviation made and implemented.

        8. Control of trespass within tribal boundaries should be 
        reviewed and strengthened.

        9. Tribes should consider a desired-future-conditions based 
        approach to forest planning. We note that a DFC is not a static 
        state, but takes into account and makes provision for the 
        dynamics of natural agents of change (fire, insects, disease, 
        storms, and climate change). DFC forest planning will require 
        better research and technical support from BIA.

        10. A regularly recurring state-of-the-resource report, 
        including a protocol for continuing data acquisition should be 
        implemented jointly between BIA and tribal organizations such 
        as the Intertribal Timber Council. An IFMAT-type study of the 
        Native peoples of Alaska and their forests is needed and long 
        overdue. Lack of technical support for economic analysis, 
        climate change adaptation, timber and non-timber forest 
        products marketing, habitat and ecosystem enhancement, and 
        forest planning and inventory severely undermines self-
        determination and integrated forest management.

    In conclusion, IFMAT observed dedicated forestry professionals and 
technicians, Indian and non-Indian, working together in tribal and BIA 
operations to care for Indian forests. Tribal forestry programs strive 
to do the best they can with limited available resources in accord with 
the wishes of tribal leadership. Accomplishments notwithstanding, 
Indian forestry appears at a tipping point as decades of ``begging 
Peter to pay Paul'' cannot be sustained. Chronic underfunding is 
limiting tribal abilities to maximize the forests' economic and 
environmental potential. On the other hand, if federal support to 
Indian forests and forestry programs is increased to recommended levels 
and fulfillment of trust responsibility is assured, Indian forests 
stand to become a model of sustainable management for federal and 
private forests alike.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, Dr. Leighton. Thank you for your 
testimony.
    There will be questions. I am going to start with you, Mr. 
Breuninger.
    You indicated that the tribe has made significant effort on 
the reservation to maintain a thriving forest industry. How 
many people do you employ, a ballpark figure, in the forest 
business--harvesting, thinning and sawmills, if you have them?
    Mr. Breuninger. As I mentioned, Chairman, our sawmill is 
closed right now. It has been closed about four or five years.
    BIA maintains a staff--and I will guess right now--but they 
are also in their fire season so they have hired additional 
fire response teams, but as far as the tribe is concerned, we 
have probably around I would say 20 members employed in our 
Division of Resource Management. They do a host of other things 
not just thinning but also range improvement projects, 
repairing fences, putting in solar wells and these kinds of 
things.
    We did receive a cut in 2012. I think our budget at that 
time we were receiving about $2.5 million for fuels reduction. 
Now, we are receiving around $550,000, so we are still able to 
638 contract that amount from BIA. That in turn puts these out 
for bid to our local tribal members. They will bid on plots. I 
will use an example of maybe 10 acre plots. We will have maybe 
25 of those plots. The individuals fortunate to be drawn will 
hire a small crew of local individual tribal members. I don't 
have an exact number of folks they are hiring.
    The Chairman. You said the forest management dollars was at 
$2.5 million and was reduced to $550,000?
    Mr. Breuninger. That is what we are receiving now.
    The Chairman. Could you tell me what impact that has had on 
your ability to manage your forests as far as fire reduction 
capabilities?
    Mr. Breuninger. Obviously, we are not able to clear and 
perform the hazardous fuels reduction as much as we'd like. I 
think in my testimony I mentioned that thus far, over the 
years, we have done about 100,000 acres of hazardous fuels 
reduction, thinning and so forth. As a result of those cuts, we 
are not going to be able to continue to thin the forest at that 
same rate that we'd like.
    The Chairman. The amount of money spent on thinning the 
forest and hazardous fuels reduction, with the greater number 
of dollars does it correlate not only proportionally a greater 
number of acres but even more than that? Do we get a bigger 
bang for the buck by running you at a budget that might not be 
at $2.5 million but not as low? That is about an 80 percent 
cut.
    Mr. Breuninger. I would fully agree with that, Mr. 
Chairman. Obviously the more funding we receive, the more crews 
we can hire and more areas we can treat. Obviously that 
translates into a much healthier forest, lowering the 
probability of infestation of bark beetles and other insects 
and reduces our fire danger.
    The Chairman. You have a stewardship contract with the 
Forest Service and the BLM. Tell me how or if this agreement 
has provided greater protection for you as per the Lincoln 
National Forest?
    Mr. Breuninger. It has obviously assisted in providing 
resources but also working in collaboration with the Forest 
Service and also working and doing some thinning projects off 
reservation. This was prior to my administration but so far it 
has proven to be very successful. I would strongly urge that 
other tribes possibly look at that.
    I would also expand on that for Congress to consider 
expanding the ability of tribes for 638 national forest dollars 
to contract those funds to not only work on the reservation but 
perhaps even go into the national forest and assist in doing 
some of their thinning projects. The value of that is it places 
our people at work and gives them an opportunity for 
employment. It is a win-win situation for everyone.
    The Chairman. Thanks, Dan.
    Senator McCain?
    Senator McCain. Mr. Brooks, an argument against forest 
thinning by some environmental activists is that thinning will 
hurt the endangered Spotted Owl habitat. It is my understanding 
that the Wallow fire and the Rodeo-Chediski fire destroyed 
about 20 percent of the Spotted Owl nests that exist in the 
world. How are the Spotted Owls doing on the Ft. Apache 
Reservation?
    Mr. Brooks. I don't know their exact numbers, but I know 
that during the Rodeo-Chediski fire, the areas that had been 
logged were definitely protected and sustained populations in 
those areas after the fire. According to our sensitive species 
coordinator, for the last 18 years, the populations are 
thriving and are not going down, are being maintained and 
sustained by our active forest management.
    Senator McCain. Some environmental groups want to diameter 
cap on harvesting trees. They want I think below 16 inches. 
What range of tree diameter does the tribe harvest?
    Mr. Brooks. Our range of trees goes from 8 to 22 to 25-
plus. We manage all diameter classes of trees and practice 
uneven age management which creates a more sustainable and 
healthy ecosystem. We don't go in and create stands of trees 
that are all the same age. We do harvest all size classes.
    Senator McCain. How have mills survived all these years, 
avoided lawsuits and remained largely operational all these 
years?
    Mr. Brooks. Sustainability. It has shown that it can be 
financially sustainable but also out of the woods. The work 
speaks for itself, in my opinion. Our forest exists, it's 
resilient, it's healthy and provides all the benefits that the 
tribe needs according to the tribal objectives. We have been 
able to avoid that and one of the large things is sovereignty. 
We are a sovereign nation.
    People might be able to express their concerns about their 
dislike for how we manage our lands. If they think we are 
cutting too much, we can say we appreciate your concern, but 
thank you very much, we are managing in the best interest of 
the tribe.
    Even some of our tribal leaders may not like thinning and 
prescribed burning for various reasons--smoke is not a pleasant 
thing. Aesthetically, you see logging slash piles, logging 
trucks and they might impact your recreation, so some of our 
tribal leaders many not like it, but they agree with it because 
they understand the benefits it has for the Apache people and 
their forests.
    Senator McCain. The fact is that tribal sovereignty is a 
key element in management of your own lands and to criticize 
your management is, in a way, an affront to the tribe and their 
members. As you pointed out, it is not just a place of 
recreation, it is a place of living.
    Mr. Brooks. Yes.
    Senator McCain. Wally Covington, the director of Northern 
Arizona University's Ecological Restoration Institute, said 
tribes can conduct forest treatments faster and cheaper because 
the stakeholders are limited to tribal members and that tribal 
forestry throughout the west had done some very innovative 
techniques, many of them adopted from the experience of your 
tribe, is that correct?
    Mr. Brooks. Yes. To go back to his statement about faster 
and cheaper, that is true. People who say faster might think 
that we don't follow environmental policy. I have heard that 
before. We follow all Federal environmental regulations. The 
Spotted Owl is a perfect example. It is a threatened and 
endangered species. We follow that.
    Water is sacred, water is holy and we just had our huge 
water quantification act signed recently and passed into law. 
We have to follow all those Federal standards and guidelines, 
so faster, yes, but that is because we are able to prepare 
these projects but still go through all the environmental 
processes, Federal and tribal. We have our own internal tribal 
environmental review. Cheaper, yes.
    Senator McCain. What is the size of the finances of the 
operation which you oversee?
    Mr. Brooks. It varies based on Federal appropriations and 
tribal appropriations, but it can range anywhere from $500,000 
to $2-$3 million depending on the appropriations.
    Senator McCain. How many employees?
    Mr. Brooks. It varies again. For forestry from the tribal 
side, anywhere from 10 to 100. When we had our stimulus dollars 
from the Forest Service, that was $7.4 million and that 
employed over 100 people.
    Senator McCain. Where did you get your training?
    Mr. Brooks. I got my training at Arizona State University, 
Northern Arizona University and at home in the woods.
    Senator McCain. I think you would agree that Mr. Covington 
is one of the better experts on this issue who warned us all 
through the 1990s of the catastrophic consequences of failure 
to thin the forests. Unfortunately, we had to learn very, very 
sad lessons as so much of our forests have been destroyed in 
the last ten years.
    The real great challenge, I'd say, Mr. Chairman, is there 
is no end in sight of the drought that we are experiencing in 
the southwest. Unless we do something really different, we are 
literally in danger of losing our national forest. That is why 
I thank all the witnesses for coming here today. Thank you.
    The Chairman. Thank you, Senator McCain. I look forward to 
working with you on giving the Forest Service the tools they 
need to be able to be successful in forest management because 
we spend a lot of money on fighting fires. From my perspective 
right now, the resource has to be taken care of in a better 
way.
    Philip, I want to visit with you a little bit. Native 
Americans know that a healthy forest is a good thing and is 
worth more than logging or preventing fires. It is a bigger 
issue than that.
    Could you talk about some of the efforts you have done to 
help other tribes with their forestry projects?
    Mr. Rigdon. There are some key things going on right now 
across Indian country as a whole. I think our relationship of 
working together as a collective group is to address common 
interests and things that we face.
    As I discussed earlier, many of our tribes are facing staff 
deficits and these kinds of things. The Intertribal Timber 
Council is the Anchor Forest concept, how do we maintain the 
forest infrastructure that is necessary so we can maintain the 
values we want from our forests and continue to do the type of 
work that we are currently doing.
    I think there are a lot of different ways tribes are 
working together. If it is the Salish Kootenai in Montana to 
the Yakama to the Coville to Oregon to the Apache who we 
listened to, we come together as collective tribes saying look 
at what we were able to accomplish with the resources we have. 
All across Indian country we are seeing examples.
    To use an example on just my reservation, in the late 
1990s, we had Western Spruce Budworm outbreak where we were 
seeing mortality of our forest stands in 70 percent of the 
stands. Our tribe was able over a five year period and treating 
about 20,000 acres a year, to reduce the impact across the 
landscape and were able to open our own sawmills and get our 
economy to function in support of our community.
    It is those kinds of things, stuff we don't just do 
ourselves; we watched the White Mountain Apache deal with 
salvaging their forests following the Rodeo-Chediski fire. It 
is that interception between our foresters and the 
interconnection between our folks. That is the really important 
part we are starting to see disappear in Indian country. I 
think it is really important.
    People come through Yakama as foresters and work there for 
two or three years and then move on to other tribes and we had 
other tribal people come and work. Today, you are not seeing 
that type of thing. All we are seeing are vacancies, so it is 
less and less people. I think that is the real struggle we are 
watching in Yakama and you could talk to any direct service 
tribe, the compact tribes, all of us are facing those types of 
situations.
    One of the key elements the Intertribal Timer Council wants 
to focus on is the educational piece, what is the next 
generation. The $12.7 million I discussed is necessary because 
we need that next generation of foresters, those people who 
grew up in our communities who are able to go out and treat, 
understand and have the knowledge of our land from our cultural 
perspective but also understand and deal with the current 
ecological things and deliver what we are doing, people like 
Jonathan sitting next to me who works for his tribe. We need 
the next Jonathans, the next myself across there.
    That is a real part of some of the main issues and missions 
the Intertribal Timber Council is pushing forward on.
    The Chairman. We appreciate your work and thank you.
    Let's talk about the next generation of foresters with Dr. 
Leighton. Correct me if I am wrong, the Salish Kootenai College 
is the only tribal college in the country that offers a four 
year forestry degree, correct?
    Dr. Leighton. Correct.
    The Chairman. Give me an idea on what has made this program 
successful?
    Dr. Leighton. I think a combination of things. We saw, for 
one thing, that there was a real need at larger, more 
conventional universities where there was a 25 percent success 
rate of Native American students going into forestry programs. 
We offer smaller classes, the cultural connection, we integrate 
culture and case studies into all of our classes.
    The fact we can be out in the woods in five minutes since 
we are located right on the edge of the Mission Mountains and 
we have had wonderful cooperation from the Confederation of 
Salish Kootenai Tribal Forestry Department.
    We have also gotten students to feel they are a part of 
something. They go to Intertribal Timber Council meetings, we 
have speakers from tribal forestry programs and they see they 
are an important part of this next generation. We get them 
early on to help with that. There has been support, scholarship 
support from the Intertribal Timber Council and the BIA has a 
wonderful workforce development program that supports students 
in school and internships around the Nation.
    The Chairman. That's good to know.
    I don't want to put words in your mouth. You said Native 
American students who go to not your school but other schools, 
there is a 25 percent success rate? Is that what you said?
    Dr. Leighton. That is correct.
    The Chairman. What is your success rate?
    Dr. Leighton. Around 50-60 percent.
    The Chairman. That is good. Are they all tribal members?
    Dr. Leighton. About two-thirds are. We do have students 
from around 14 different tribes right now in forestry, so they 
learn from each other.
    The Chairman. IFMAT found that we need about a 65 percent 
increase in professional and technical staff to adequately 
staff the Indian forestry programs. Say we were able to get 
that 65 percent and forward fund these programs, do we have the 
trained professionals to fill the jobs?
    Dr. Leighton. We don't right now. We need to expand at all 
levels for recruitment. There are 100 Native American students 
right now and we are looking for 792 positions, so there is a 
real need.
    The Chairman. Back up. What did you just say?
    Dr. Leighton. There are 100 Native American students in 
forestry programs and the call is for 792 additionally.
    The Chairman. Where did you get that figure? Was that in 
Salish or all the forestry programs?
    Dr. Leighton. That is all the forestry programs across the 
Nation. Salish has about 40 percent. That was based on USDA 
education statistics.
    The Chairman. What can be done to recruit those Native 
American students where in a place like Montana and maybe every 
one of these tribes unemployment is so high and there is that 
much need out there, what can be done?
    Dr. Leighton. Many things. One thing is getting the story 
out to younger Native students from youth camps all the way up 
to supporting some of the big schools. Northern Arizona 
University used to have a Native American Forestry Mentoring 
Program that is not currently operational. The University of 
Montana has a very successful one they started a few years ago. 
These are real models.
    When SKC built the forestry program, they gained and we had 
a 40 percent increase or more than. More tribal colleges need 
the help to step up and start forestry programs. There are many 
things we can do.
    The Chairman. Have tribal colleges expressed an interest to 
you since you have a program?
    Dr. Leighton. Yes. We have had quite a few. The problem 
frequently with tribal colleges like the tribes is due to 
funding. The funding has to come first, so they struggle to 
find that.
    The Chairman. I just want to say thank you all for your 
work. I very much appreciate it. Thank you all for being here 
today and your testimony. I appreciate you guys making the trip 
out here today to testify and talk about an issue that quite 
frankly needs attention on a broad based level, not only tribal 
governments but the Forest Service and BLM.
    The record will remain open for two weeks from today.

                  Additional Statement for the Record
 Prepared Statement of Hon. Michael O. Finley, Chairman, Confederated 
                   Tribes of the Colville Reservation
    On behalf of the Confederated Tribes of the Colville Reservation 
(``Colville Tribes'' or the ``CCT''), thank you for the opportunity to 
provide this statement for the record for this important hearing, which 
focuses on three issues: (1) how the Colville Tribes' forest management 
activities are more efficient than neighboring federal land managers; 
(2) how the Tribal Forest Protection Act (``TFPA'') can be a critical 
tool to protecting the Colville Tribes' on-reservation forests; and (3) 
the importance of having a sustainable timber economy that involves 
local communities.
Background on the Colville Tribes and its Forest Economy
    Although now considered a single Indian tribe, the Confederated 
Tribes of the Colville Reservation is a confederation of twelve 
aboriginal tribes and bands from all across eastern Washington State. 
The present day Colville Reservation is located in north-central 
Washington State and was established by Executive Order in 1872. The 
Colville Reservation covers approximately 1.4 million acres and its 
boundaries include parts of Okanogan and Ferry counties. The CCT has 
more than 9,400 enrolled members, making it one of the largest Indian 
tribes in the Pacific Northwest, and the second largest in the state of 
Washington. About half of the CCT's members live on or near the 
Colville Reservation. Of the 1.4 million acres that comprise the 
Colville Reservation, 922,240 acres are forested land.
    The Colville Reservation originally consisted of nearly three 
million acres and included all of the area north of the present day 
Reservation bounded by the Columbia and Okanogan Rivers. This 1.5 
million acre area, referred to as the ``North Half,'' was opened to the 
public domain in 1891 in exchange for reserved hunting and fishing 
rights to the CCT and its members. Most of the Colville National Forest 
and significant portions of the Okanogan National Forest are located 
within the North Half. Both forests are contiguous to the northern 
boundary of the Colville Reservation.
    For decades, commercial timber harvests provided the backbone of 
the CCT's economy. Until the economic downturn and the housing market 
crash of a few years ago, the CCT's enterprise division operated two 
mills. One of the mills was a traditional sawmill, Colville Indian 
Precision Pine (CIPP), that was designed to process larger diameter 
logs. The other, Colville Indian Power and Veneer (CIPV), manufactured 
plywood and veneer. When both mills were operational the CCT's forest 
products industry employed nearly 600 people and injected millions in 
payroll dollars into the local economy. Market conditions forced both 
CIPV and CIPP to close in 2009. Closure of the mills resulted in the 
loss of more than 350 jobs for an already economically depressed rural 
area, not including the loss of the secondary jobs that the facilities 
supported, such as contract loggers and truck drivers.
    Early last year, the CCT's enterprise corporation entered into an 
agreement to lease CIPV to a third party and for the mill to reopen. 
CIPV was renamed Omak Wood Products and had its grand opening last 
October. At full capacity, not only will it create as many as 200 jobs, 
but it will also create a much needed outlet for forest products in 
north central Washington.
Tribal Forest Management Practices are More Efficient than other 
        Federal Land Managers and should be incorporated into other 
        Federal Land Management Plans
    The Bureau of Indian Affairs (BIA) comprehensively regulates all 
forest management activities on Indian trust lands. The Colville Tribes 
conducts its on-reservation forest management activities under an 
Integrated Resource Management Plan (IRMP), which incorporates natural 
resource, economic, cultural, and social priorities of the CCT and its 
membership. The CCT's IRMP is comprised of individual component plans, 
each of which has been approved by the Colville Tribes and the BIA and 
sets forth in more specificity the management of each resource. These 
component plans address forest management, fire management, range 
management, water quality, fish and wildlife, and parks and recreation. 
While each plan has specific goals for the respective resource, they 
each work toward the same holistic goals and desired future conditions 
established by the CCT and its membership in the IRMP.
    To comply with the National Environmental Policy Act (NEPA), a full 
Environmental Impact Statement (EIS) was completed for the IRMP. 
Because the IRMP went through a full EIS, subsequent approval of the 
component plans required only an Environmental Assessment (EA). With 
the EAs completed and the component plans approved, further NEPA 
compliance is accelerated because the EIS and the respective EAs 
already address most of the larger issues that would otherwise arise 
with activities on U.S. Forest Service (USFS) or other federal lands. 
When the CCT coordinates a salvage log sale in the aftermath of a 
wildfire, the IRMP and its tiered approach to NEPA compliance allows 
the Colville Tribes' personnel to act quickly to identify mitigation 
measures and complete the public comment process. In past years, the 
CCT has been able to complete salvage log sales so efficiently that 
some of the logs were still smoking when they were salvaged. Despite 
the speed with which the CCT is able to effectuate a salvage sale, the 
environmental review and public comment periods are maintained for each 
sale--they are simply expedited.
    The BIA's forestry regulations also provide increased efficiency 
for tribal forest management. The Department of the Interior 
promulgated these regulations in 1995 and they govern nearly all on-
reservation forest management activities. For appeals by third parties 
of timber sales and other forest management decisions, the regulations 
define ``interested party'' as any person ``whose own direct economic 
interest is adversely affected'' by the action or decision. This limits 
the universe of persons and entities who can appeal timber sales on 
Indian trust land to those with a direct economic interest. For appeals 
of timber sales and other decisions on USFS and other federal lands, 
there is no such limitation and appeals can be brought by entities with 
little relation to the decision or the local community. Further, 
litigation and appeals over timber sales on federal lands can last for 
years, often resulting in significant costs and devaluation of 
projects.
    In addition to the regulatory differences between tribal and other 
federal forest lands, the CCT also has a cultural and political 
motivation to ensure that its own forests are managed in a sustainable 
manner. The CCT adapts to changing conditions by modifying harvest 
schedules to treat watersheds before insect and disease issues become 
epidemics. This minimizes the impact to the resource and removes at-
risk volume before these agents cause mortality. Also, the IRMP 
requires the CCT to manage its forests not only to maximize the 
economic return and provide benefits to the local economy but also to 
accomplish forest restoration and resiliency goals. Tribal members 
depend on our forests to live, hunt, and gather cultural foods. The CCT 
has an obligation to ensure that our forests will be healthy and 
sustainable for generations to come. In the Tribes' view, the health of 
the community is directly tied to the health of the environment. 
Agencies that manage other federal lands do not have such a motivation.
    Finally, federal land managers should incorporate these and other 
tribal land management principles into their own land management plans. 
Notably, Section 202(b) of the Federal Land Policy and Management Act 
requires the USFS to coordinate the lands use plans for National Forest 
System lands with tribal management practices. For the past few years 
the CCT has provided detailed comments on the USFS forest plan revision 
process for the Colville and Okanogan National Forests. The CCT has 
recommended the establishment of a ``Buffer Zone'' that encompasses 
approximately 242,000 acres in both the Okanogan and Colville National 
Forests to protect the Colville Reservation lands as well as 
incorporate some of the CCT's on-reservation management principles.
    In a November 25, 2009, letter, the Director of the BIA informed 
the USFS that the BIA agreed with the CCT's management recommendations 
and concerns with disease and fire threats from Colville National 
Forest lands. The draft EIS for the forest plan is scheduled to be 
unveiled late this summer. Although the CCT has not yet been consulted 
in the development of alternatives, the CCT is hopeful that the USFS 
will consult with us soon and will ultimately incorporate the CCT's 
recommended management regime in the draft EIS.
The TFPA Can be a Critical Tool for Protecting Reservation Forests
    The TFPA, which was signed into law in 2004, establishes a 
mechanism that allows Indian tribes to perform hazardous fuels 
reduction and other forest health activities on federal lands that are 
contiguous or adjacent to Indian trust lands. Congress's primary reason 
for enacting the TFPA was the fire and disease risk that many Indian 
tribes face from adjacent federal lands.
    The Colville Reservation's forests face an imminent threat from 
pests that have infected large areas of the Colville and the Okanogan 
National Forests, specifically the spruce budworm and mountain pine 
beetle. Some of the infected areas are currently just a few miles north 
of our Reservation boundary. Wildand fire from neighboring federal 
lands also continues to pose a danger to the Colville Reservation. Many 
areas of the neighboring national forests contain overstocked stands 
with fuel loadings well outside historic ranges. When fires occur on 
these stands they are extremely difficult to manage and pose an extreme 
risk to the CCT's trust lands. The CCT's management practices have 
largely prevented on-reservation catastrophic fire events, but wildland 
fires that start on federal lands could decimate our forests without 
regard to political boundaries.
    The CCT is currently working with officials from the Colville and 
the Okanogan National Forests to initiate what the CCT intends to be a 
TFPA project that will allow the CCT to have a role in treating these 
infected areas in the North Half. The details have yet to be worked 
out, but discussions with the forest supervisors have been productive 
and encouraging for both parties. The CCT believes that its desire to 
treat the affected areas in the North Half to protect our own 
Reservation lands will assist the USFS in carrying out its management 
activities. Rep. Cathy McMorris Rodgers has been supportive of the 
CCT's efforts and her office has assisted with these discussions. The 
CCT is hopeful that this effort will result in a long-term TFPA 
agreement that will benefit not only the CCT and the Colville National 
Forest, but also the forest products economy in both Ferry and Okanogan 
counties.
    If fully embraced by the USFS, the TFPA can provide an effective 
tool for tribes. While the CCT has been encouraged with its discussions 
with USFS officials, we understand that other tribes' proposals have 
been met with resistance by their local USFS officials or delays in 
implementation. Going forward, changes will likely be needed to the 
TFPA to encourage its use by the USFS and to expedite approval and 
implementation of TFPA proposals.
The Importance of a Sustainable Timber Economy
    When the CCT closed CIPP and CIPV in 2009, very few timber sales 
were approved on the Colville Reservation. One of the reasons is that 
for on-reservation timber sales, forest restoration activities on 
timber sale areas are funded by the proceeds of the sale. Without 
milling capacity, forest management shifted exclusively toward forest 
health and essentially stopped. Harvest levels dropped from an average 
of 78 million board feet per year to two million board feet in 2010. 
With timber prices extremely low, no funds were available to support 
tribal programs or forest restoration projects.
    Most of the experienced logging contractors on the Colville 
Reservation retired or moved on to other endeavors during this 
downtime. Now that the timber market has rebounded, the CCT is 
presented with a severe shortage of qualified contractors to log timber 
sales, both on and off the Colville Reservation. The severe market 
downturn has made many of these former contractors hesitant to invest 
in new equipment for fear that the market will again dip. Worse, the 
vast majority of experienced contractors are over the age of 50. At 
this point there are very few young people who want to pursue a career 
in logging.
    All of this presents a very real challenge to providing needed 
treatments to the forests in north central Washington. Without milling 
capacity and logging contractors, a community loses its ability to 
manage forests. As we are seeing on the ground on the Colville 
Reservation, huge financial investments are required to replace this 
infrastructure once it has been lost.
    The CCT believes that stakeholders and land managers must 
collaborate across ownership boundaries to ensure that the 
infrastructure needed to maintain healthy, productive forests can be 
maintained, even during market downturns. This is one of the goals of 
the Intertribal Timber Council's ``Anchor Forest'' initiative. The CCT 
is participating in this initiative and is hopeful that it will lead to 
a solution that will prevent the severe labor shortage we are currently 
experiencing from repeating itself in future years.
    Thank you for allowing the Colville Tribes to provide this 
statement. We look forward to working with the Committee on these 
issues.

    The Chairman. Once again, thank you all and this hearing is 
adjourned.
    [Whereupon, at 3:48 p.m., the Committee was adjourned.]

                                  <all>

</pre></body></html>
